<html>
<title> - BURMA'S SAFFRON REVOLUTION</title>
<body><pre>[Senate Hearing 110-505]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-505
 
                       BURMA'S SAFFRON REVOLUTION

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 3, 2007

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                     U.S. GOVERNMENT PRINTING OFFICE
44-490 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                 ------                                

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                  BARBARA BOXER, California, Chairman

JOHN F. KERRY, Massachusetts         LISA MURKOWSKI, Alaska
RUSSELL D. FEINGOLD, Wisconsin       JOHNNY ISAKSON, Georgia
BARACK OBAMA, Illinois               DAVID VITTER, Louisiana
JIM WEBB, Virginia                   CHUCK HAGEL, Nebraska

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Boxer, Hon. Barbara, U.S. Senator from California, opening 
  statement......................................................     1
    Newspaper article ``U.N. Worker Arrested in Myanmar''........     1
    Statement by Mrs. Laura Bush, First Lady of the United States     4
Din, Aung, policy director, cofounder, U.S. Campaign for Burma, 
  Washington, DC.................................................    35
    Prepared statement...........................................    37
Feinstein, Hon. Dianne, U.S. Senator from California.............    12
    Prepared statement...........................................    15
    Statement from Chinese Premier Wen Jiabao....................    13
    Statement from Chinese Foreign Ministry Spokesperson.........    13
Green, Dr. Michael J., senior adviser, Center for Strategic and 
  International Studies, Washington, DC..........................    33
Kerry, Hon. John F., U.S. Senator from Massachusetts.............     6
Malinowski, Tom, Washington Advocacy Director, Human Rights 
  Watch, Washington, DC..........................................    41
Marciel, Scot, Deputy Assistant Secretary, Bureau of East Asian 
  and Pacific Affairs, Department of State, Washington, DC.......    17
    Prepared statement...........................................    19
McConnell, Hon. Mitch, U.S. Senator from Kentucky................    10
    Prepared statement...........................................    11
Murkowski, Hon. Lisa, U.S. Senator from Alaska, opening statement     5
Webb, Hon. Jim, U.S. Senator from Virginia.......................     8

                                 (iii)

  


                       BURMA'S SAFFRON REVOLUTION

                              ----------                              


                       WEDNESDAY, OCTOBER 3, 2007

                               U.S. Senate,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:40 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the subcommittee) presiding.
    Present: Senators Boxer, Kerry, Cardin, Webb, and 
Murkowski.
    Also Present: Senators McConnell and Feinstein.

            OPENING STATEMENT OF HON. BARBARA BOXER,
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Welcome, everybody. The subcommittee will 
come to order.
    We have a very important hearing, and we have three panels. 
We want to welcome all of our witnesses. We really appreciate 
this, because I think we're going to learn--and we're going to 
shine the truth on something, that's happening as we speak, 
that should never be happening.
    Today, the Foreign Relations Subcommittee on East Asian and 
Pacific Affairs meets to consider a critical issue that's at 
the forefront of global affairs: The Burmese people's struggle 
against a brutal military regime that rules with an iron fist.
    And I'd ask unanimous consent to place in the record an 
article about a kidnapping and a detention of United Nations 
officials. ``A local staff member of the U.N. and three of her 
family members were taken from their home before dawn as part 
of a continuing crackdown on demonstrations and 
demonstrators,'' a U.N. official said. The 38-year-old woman, 
her husband, and two relatives were detained at 4 a.m. And the 
workers' arrest is one of an unknown number of nighttime 
abductions as part of a crackdown by the junta. After 
demonstrations over the past month, the largest protests in 
nearly two decades, the number of people killed or detailed is 
unknown.
    [The article previously referred to follows:]

                    U.N. Worker Arrested in Myanmar

                           (By Thomas Fuller)

    Bangkok, Oct. 3.--A local staff member of the United Nations in 
Myanmar and three of her family members were taken from their home in 
Yangon before dawn today as part of an ongoing crackdown on 
demonstrators.
    Charles Petrie, the most senior official for the United Nations in 
the country, said a 38-year-old woman, her husband and two relatives 
were detained by security personnel at 4 a.m. He said he was not 
releasing their names to avoid jeopardizing their return.
    The U.N. worker's arrest is one of an unknown number of nighttime 
abductions conducted by the junta to identify and round up people who 
took part in the demonstrations, which were the largest protests 
against the junta in nearly two decades.
    Another U.N. official who was arrested last week and then released 
said he was taken to a university in Yangon where about 800 people were 
held in squalid conditions.
    ``We're concerned with what seems to be happening at night--there 
are arrests and people being detained,'' Mr. Petrie said. ``There is 
palpable fear even among our staff.''
    Yangon residents say helicopters fly over the city throughout the 
night as military trucks patrol the streets with loudspeakers 
broadcasting intimidating messages.
    Shari Villarosa, the highest ranking U.S. diplomat in Myanmar, said 
the message, broadcast in Burmese, was roughly this: ``We have your 
pictures. We're going to come and get you.''
    ``I think they just are arresting anybody that they have the least 
bit of suspicion about,'' Ms. Villarosa said. ``This is a military that 
rules by fear and intimidation. Wouldn't you be terrified if you were 
subject to being rousted out of bed at 2 o'clock at the morning, taken 
away and never knew why?''
    The issue of nighttime raids was raised by Ibrahim Gambari, the 
special envoy of the United Nations, during a meeting Tuesday with 
Myanmar's top general, Than Shwe. Three U.N. workers who had been 
detained last week were subsequently released.
    Mr. Gambari, who was scheduled to fly to New York late today to 
report on his trip to the U.N. Secretary General, declined to speak 
with reporters during a stopover in Singapore.
    There are 3,000 U.N. staff in Myanmar, mainly working in poverty 
alleviation projects. ``Our sense is that the U.N. is not being 
targeted,'' Mr. Petrie said. ``The U.N. is being caught up in broader 
events.''
    The number of people killed or detained during the crackdown 
remains unknown.
    Reuters news agency reported from Yangon that 80 monks and 149 
women, possibly nuns, who had been rounded up last week were freed 
today. The agency quoted one of the monks saying he had been 
interrogated but not physically abused.
    The news agency also quoted a relative of three of the released 
women saying those being interrogated were divided into four 
categories: Passers-by, those who watched, those who clapped and those 
who joined in.
    The government says 10 people were killed in the crackdown 
including Kenji Nagai, a Japanese photojournalist, whose body was 
scheduled to be flown back to Japan on Thursday. Diplomats and Burmese 
dissident groups believe the total death toll was higher.
    Japan's Foreign Minister, Masahiko Komura, said Wednesday that 
Tokyo was considering cutting back its aid to Myanmar to protest Mr. 
Nagai's death and the crackdown, according to Kyodo News agency. Annual 
aid to Myanmar from Japan is about $25 million.

    Senator Boxer. The current Burmese Government, which calls 
itself the State Peace and Development Council, is more 
accurately known to the world as the military junta--a 
dictatorship that refused to relinquish power even after the 
Burmese people voted them out in a democratic election in 1990. 
The winner of that election, the National League for Democracy, 
or NLD, was not allowed to take power; and its leader, the 
Global Icon of Freedom, a Nobel Peace Prize recipient, Aung San 
Suu Kyi, was placed under house arrest, where she remains 
today. Since them, the Burmese people have suffered imaginable 
horrors--unimaginable horrors. They have paid dearly in life 
and treasure. They have seen their natural resources plundered 
by a corrupt regime, and they have been denied the most basic 
human rights.
    Two weeks ago, tens of thousands of Burmese people and 
Buddhist monks took to the streets--and we have, I think, a 
picture of this demonstration--to demand democracy and an end 
to decades of tyranny. And you can see the endless line of 
protesters there.
    Initially, the protests centered on the increased gas and 
fuel prices and the government's treatment of Burma's monks. 
But they grew in scope as the emboldened Burmese people 
demanded their liberty from one of the world's worst human-
rights abusers.
    The people demanded freedom from a government that 
restricts the basic freedoms of speech and assembly, engages in 
human trafficking, discriminates against women and ethnic 
minorities, uses children as soldiers and laborers, imprisons 
arbitrarily, abuses prisoners and detainees, and rapes and 
tortures.
    Tragically, the military junta has responded to this 
courageous stand with a bloody crackdown whose purposes is to 
instill fear and silence protesters. And we have this photo of 
blood on the ground, and clearly someone gone. And we have 
another--you could put it over my chair, here--of the shooting 
of a Japanese photographer, just, in cold blood. And I think 
most of you know this photo. And these photos speak a thousand 
words, as they often do.
    While the Burmese people have been forced from the streets, 
they continue to resist. In fact, there are reports that 
smaller protests are occurring throughout the country. The 
Burmese people are not willing to submit to the tactics of the 
military junta anymore. They rose up last week, despite a 
brutal crackdown on a similar uprising in the summer of 1988, 
in which an estimated 3,000 people were killed. They rose up, 
despite the fact that this regime has destroyed 3,000 villages 
and displaced approximately 2 million people. They rose up in 
the face of impossible odds to demand their freedom. And they 
rose up, despite the fact that this regime has silenced 
democracy activists and political leaders, such as Aung San Suu 
Kyi. As many of you know, she has said, ``We will prevail, 
because our cause is right, because our cause is just. History 
is on our side. Time is on our side.''
    The time for the Burmese people to prevail is now. Brutal 
response of the military has captured the attention of the 
international community, and shame on us if we take our eyes 
off this.
    The United States, the Association of Southeast Asian 
Nations, the United Nations, and even China and Russia, through 
the U.N. Human Rights Council, have rightfully condemned their 
actions. But words must translate into action, and that is why 
we've come together today to discuss the current situation in 
Burma and how best to move forward.
    And I want to thank my ranking member, Lisa Murkowski. I 
want to thank, of course, Senator Biden, the full committee 
chair, and Ranking Member Richard Lugar, because they waived 
all the necessary time that this could have been delayed, and 
they worked with us. And we are very proud, this is a 
bipartisan matter.
    In his April 1963 letter from a jail cell in Birmingham, 
Alabama, Dr. Martin Luther King wrote, ``Freedom is never 
voluntarily given by the oppressor. It must be demanded by the 
oppressed.'' And the Burmese people are demanding their 
freedom. It is time for the world to stand beside them.
    Before I conclude, I want to read a little from a statement 
submitted today by First Lady Laura Bush, who has spoken out 
with great passion on behalf of the Burmese people. Mrs. Bush 
writes--and I'd ask unanimous consent to place her full 
statement in the record. Without objection, I will do that.
    She writes, ``I am deeply concerned about the Burmese 
people. The military regime's crackdown on protesting monks and 
peaceful democracy activists is shameful. Video footage now 
coming out of Burma confirms what our charge reports, that the 
abuse of protesters is more brutal than initially described, 
and that there are likely many more fatalities than the 10 
confirmed by the military regime.''
    Mrs. Bush goes on to say, ``We urge the Security Council to 
issue a clear resolution that calls for the release of the 
Burmese political prisoners, an end to the regime's crackdown, 
and a real dialogue that leads to a peaceful transition to 
democracy. The U.S. believes it is time for General Than Shwe 
and the junta to step aside and to make way for a unified Burma 
governed by legitimate leaders. We urge other governments to 
join the United States in condemning the junta's use of 
violence and in working toward freedom in Burma.''
    We all thank the First Lady for her statement.
    [The statement previously referred to follows:]

  Statement by Mrs. Laura Bush, First Lady of the United States, The 
                      White House, Washington, DC

    The deplorable acts of violence being perpetrated against Buddhist 
monks and peaceful Burmese demonstrators shame the military regime. 
Tens of thousands of Burmese are turning to the streets to demand their 
freedom and the country's military dictatorship has countered with 
horrifying abuses. Nonviolent demonstrations by Buddhist monks and nuns 
have been met with tear gas, smoke grenades, baton beatings, and 
automatic weapons. The regime admits to killing 10 people, but 
unofficial reports suggest the number is much higher. Getting reliable 
information in and out of Burma is a challenge as cell phones have been 
seized and telephone lines slashed. Burmese bloggers and citizen 
journalists are being silenced. The U.N. has dispatched its special 
envoy on Burma, Ibrahim Gambari. He must be allowed to meet with 
demonstrating monks and Burma's democratically elected leader, Aung San 
Suu Kyi. President Bush calls on all nations, especially those nations 
closest to Burma that have the most influence with the regime, to 
support the aspirations of the Burmese people, and to join in 
condemning the junta's use of violence on its own people. Seeing Burma 
through a peaceful democratic transition is in all nations' best 
interest. The United States stands with the people of Burma. We support 
their demands for basic human rights: Freedom of speech, worship, and 
assembly. We cannot--and will not--turn our attention from courageous 
people who stand up for democracy and justice.

    Senator Boxer. I, again, want to thank Senator Murkowski. 
I'm looking forward to hearing from her. And I would also like 
to introduce our witnesses before I turn it over to Senator 
Murkowski and then Senator Kerry and Webb. And we're each 
supposed to have 8 minutes. I don't know what happened to the 
clock, it kind of got stuck, but each of us will have 8 
minutes.
    Our first panel, we will hear from Mr. Scott Marciel, the 
Deputy Assistant Secretary of State for the Bureau of East 
Asian and Pacific Affairs, and a career member of the Senior 
Foreign Service. His most recent assignments were as Director 
of the Department's Office of Maritime Southeast Asia and the 
Director of the Office of Mainland Southeast Asia. And I 
understand that Mr. Marciel is a native of California, so 
that's good.
    On our second panel, we will hear from Michael Green, a 
senior adviser and the Japan chair at the Center for Strategic 
and International Studies. Prior to this post, Dr. Green served 
as special assistant to the President for national security 
affairs, and senior director for Asian Affairs at the National 
Security Council, from January 2004 to December 2005. We will 
also hear from Mr. Tom Malinowski, the Washington advocacy 
director for Human Rights Watch. And we were so fortunate, Tom, 
that you were able to come today, because I know you've been 
traveling. Prior to joining Human Rights Watch, he was special 
assistant to President Clinton and senior director for foreign 
policy speechwriting at the National Security Council. And, 
finally, we will hear from Mr. Aung Din, the policy director 
and cofounder of the U.S. Campaign for Burma. In 1988, Mr. Din 
was a student at the Rangoon Institute of Technology. He was 
also a participant in the 1988 demonstrations against the 
military government, Burma, in which the government troops 
opened fire and killed roughly 3,000 Burmese students.
    I look forward to hearing from our witnesses. I would now 
like to turn to Senator Murkowski for any comments she may 
have, and then to Senators Kerry and Webb.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    Senator Murkowski. Thank you, Madam Chairman. You mentioned 
the timeliness of this hearing. I can't help but look at the 
pictures that you have in front of us, and those that you 
showed, and realize, when we talk about timeliness, this is 
now. These individuals who are in the streets, in Rangoon, 
protests that are happening, the crackdown, the violence, the 
persecution; it is happening now. And for us to have an 
opportunity to address this, Madam Chairman, I appreciate your 
initiative greatly.
    I was very pleased to join with you and with other members 
of the Senate Women's Caucus on Burma as we expressed our 
solidarity with the protesters in Burma, calling on the 
international community to place greater pressure on the 
military junta to restore democracy in the nation. I appreciate 
the leadership that the First Lady has taken on this issue, not 
only with the letter that you have just asked to be placed in 
the record, but in participation with the Senate Women's Caucus 
on Burma on this.
    It is very important that those countries with the closest 
ties to Burma, whether it's China, India, Russia, Japan, the 
members of ASEAN, that they make clear their rejection of 
violence and their support for a peaceful political process.
    It was back in March 2006 that I chaired a hearing in this 
subcommittee on Burma and the impact, or the lack thereof, that 
U.S. sanctions were having on that country. When the subject of 
Burma comes up, we most often think of Aung San Suu Kyi and her 
National League of Democracy Party. She's the primary voice for 
political reform in a nation that is run by a repressive 
military junta; yet, for all the support of the international 
community, all the support that's been demonstrated for Suu Kyi 
and her party, and the pressure applied in one form or another 
on the Burmese Government, Suu Kyi remains under house arrest, 
and the National League of Democracy's election victory in 1990 
remains unhonored.
    Since the student demonstrations in 1988, our policy toward 
Burma has been to sanction and to isolate, with increasing 
limitations on assistance and trade. Yet, the SPDC has 
effectively minimized the impact of these sanctions by playing 
interested investors off one another as it offers access to 
Burma's considerable natural resources and nations compete to 
see who has greater influence in the region. The SPDC continues 
to have access to financial assistance and the means to 
continue its authoritative rule, despite Burma's continuous 
ranking among the poorest of the poor.
    With this latest uprising and its subsequent repression, we 
see, yet again, that many of the largest investors in Burma are 
unwilling to go beyond words of condemnation and urging 
restraint. Certainly, regional stability is an absolute 
necessity when considering what the future for Burma holds. 
There's a difficult balancing act for Burma's neighbors to 
carry out, and it's our responsibility to engage with the 
international community to try to find that balance, to find 
that right mix of sanctions and interaction.
    Another issue that I believe needs to be kept in mind as 
we're looking at the situation in Burma is the role of Burma's 
ethnic minorities. Aung San Suu Kyi tends to get the majority 
of media and political attention, but, even if the results of 
the 1988 election are recognized or new legitimate elections 
are held, that does not solve the armed resistance offered by 
groups like the Shan State and the Karen National Union. Both 
China and India are looking to sustain their domestic economic 
growth. Likewise, one-third of Thailand's natural gas supply 
comes from Burma. These nations are eager to avoid turmoil on 
their borders. For that to happen, a resolution must be reached 
with the ethnic minority groups.
    Madam Chairman, I know that we have other members--I see 
Senator McConnell, who has also been a leader on Burma--and I 
know that Senator Feinstein was hoping to join the committee, 
as well, so I will forgo the rest of my time so that we can 
have an opportunity to hear from our distinguished panels.
    Thank you.
    Senator Boxer. Thank you. We're going to go to our 
colleagues who are here, and invite Senator McConnell, to 
please join the State Department. And we--as soon as they're 
completed, Senator McConnell, we will turn to you. And if 
anyone comes between now and then, they will go after Senator 
McConnell.
    Senator Kerry, you have 8 minutes, if you wish to use 
those, and then Senator Webb.

      STATEMENT OF HON. JOHN F. KERRY, U.S. SENATOR FROM 
                         MASSACHUSETTS

    Senator Kerry. Thank you, Madam Chair. I'm very 
appreciative for your leadership in pulling this hearing 
together today. It could not be more important.
    And I appreciate Senator McConnell being present here. He 
and I have worked on this issue over some years, and I would 
like to thank him publicly for his assistance in the effort we 
made on the resolution on the floor of the Senate.
    We've seen, firsthand, in the last few weeks, the 
incredible courage of Burma's people standing up against one of 
the most repressive regimes in the world. This has been years 
and years of repression now. I remember traveling to Burma. 
I've met with Aung San Suu Kyi in her home, where she was under 
arrest. I've also met with the junta, and I've listened to 
their lame excuses for why they're doing what they're doing, 
and deception and their lies.
    What began a month ago as a modest impromptu protest has 
mushroomed into a nationwide peaceful democratic groundswell, 
with tens of thousands of students joining Buddhist monks in 
what has now become known as the Saffron Revolution.
    But I want to remind people today, we have been here 
before. This is the second time in 20 years that there's been 
bloodshed on the streets of Burma in response to peaceful 
protests. The democratic uprisings of 1988 and the repression 
that followed are clear monuments to the horrible human toll of 
our collective failure to act.
    Back then, the United States and the world spoke out, as 
they're speaking out now. But then, guess what happened? 
Everybody lost focus. Other issues became more important. And 
here we are again. So, frankly, what's important now is not 
just, ``Why now?'' but, ``What next?''
    I'm pleased the Senate spoke out by unanimously passing a 
bipartisan resolution. But we're not going to end the 
oppression in Burma, we're not going to restore democracy, and 
we're not going to honor these courageous protests or our 
values across the globe just by passing resolutions of 
disapproval. It's going to take a strategy, it's going to take 
a policy, it's going to take leadership, it's going to take 
focus, and it demands ongoing pressure.
    The question that remains is whether the United States is 
really serious, or the United Nations is really serious, or 
China is really serious, about the statements that they're 
making. We have to finish what the people of Burma have 
started, and that means getting the international community to 
provide the necessary pressure on this military junta to 
release all political prisoners, starting with Aung San Suu 
Kyi, and take meaningful steps down the path of political 
reform.
    I will say yes; it is good that the President made the 
decision to target the top generals for financial sanctions. 
But, I will also say, if we haven't learned anything, we have 
learned that financial sanctions by the United States are not 
enough. About a month and a half ago I convened a meeting with 
some of the leading people who have been working on Burma, and 
there was an across-the-board agreement that the sanctions 
regime currently in place isn't working, and won't work. Now, 
the United Nations mission led by Special Envoy Ibrahim 
Gambari, showed some promise in his meeting with Than Shwe--and 
twice with Aung San Suu Kyi--but Gambari has left Burma. Let's 
remember that. And he has left it without any real sense of 
tangible progress.
    The bottom line is that the sanctions experience of this 
committee back in the 1980s and 1990s informs us that sanctions 
must be multilateral to be most effective. What we did in South 
Africa worked. It worked because it was multilateral. And 
almost every example of unilateral, bilateral, or trilateral 
sanctions tell us that it doesn't work, unless you really shut 
the door by a multilateral effort. So, we need to understand 
that.
    Now, one other comment. Yesterday, four of us met with the 
Chinese Ambassador with respect to this issue, and the fact is 
that these generals in the junta, who have now moved their 
capital some 200 miles from the old capital, literally a bunker 
within a bunker of a country, are surviving today because of 
their economic relationship with China. And the world needs to 
understand that. And China particularly needs to understand 
that we understand that.
    And so, a statement that we need some patience here and 
we're going to work through it is not sufficient. The killing 
has to stop. And China needs to make it clear that it's 
unacceptable that those monasteries have been cleared of monks, 
that people have been loaded into trucks and driven off to God 
knows where. We know what happens when people have been loaded 
into trucks before. History has shown us that. There's a series 
on Public Television right now about World War II that reminds 
us of the impact of what happens when people are loaded into 
trucks and people of ``responsibility'' look the other way.
    So, this is compelling. It is now. And China, which is 
about to host the Olympics, needs to understand that those 
Olympics will have a cloud over them if China has not exercised 
all of its leadership to end this killing and to start to push 
for change.
    These generals in the junta can survive, because there is 
no sufficient outside global pressure to make it otherwise for 
them. ASEAN has started to speak up, but even ASEAN's voice has 
not had the kind of economic pressure necessary for change.
    So, Madam Chairman, it is critical that the international 
community respond to this ongoing tragedy by pressuring Burma's 
military junta to lift all the restrictions on humanitarian-aid 
delivery. Tuberculosis is widespread, and mortality rates in 
Burma are among the highest in Asia. At least 37,000 died of 
HIV/AIDS in 2005, and over 600,000 are affected by it. Malaria 
is also rife, and about one-third of the people of the country 
are mired in poverty. Many of the 52 million people live in 
abject misery, and they're kept in this state by a junta that 
lives in extraordinary luxury. So, it is critical that the 
unfettered delivery of humanitarian aid and humanitarian aid 
groups be able to work, and that the resilient and brave 
Burmese people are shown that they are more than worthy of just 
our verbal support and our verbal compassion. It is time for 
the global community to act.
    I think that a peaceful prodemocratic outcome in Burma 
could be within reach. The U.N., ASEAN, India, Russia, and 
especially China--China could lead this, China could change so 
much in the view of the world by moving appropriately in these 
next hours, and that's the message we asked the Chinese 
Ambassador to convey to the highest level of the government, 
and that's the message I think this committee wants to convey 
here today.
    Thank you, Madam Chair.
    Senator Boxer. Senator, thank you so much.
    Senator Webb.

     STATEMENT OF HON. JIM WEBB, U.S. SENATOR FROM VIRGINIA

    Senator Webb. Thank you, Madam Chairman. I don't have a 
formal opening statement, and I'll try to be brief. I'm 
interested in hearing from the Republican leader and from the 
witnesses.
    But let me just say a few things. One is that, in my view, 
we have an immediate crisis that needs to be resolved, but we 
also have to figure out a way--and I don't think we've been 
very good at it--to resolve the conditions that have fed this 
crisis. I'm looking at this picture in front of you. You can't 
see it, but I know that street. In 2001, I wrote an article for 
the Wall Street Journal about China's incremental growth, in 
terms of power in Southeast Asia, and I got a letter from an 
American, who was doing business in Burma, who had an outdoor 
furniture business. He said, ``If you really want to understand 
this incremental growth in power, you need to come to Burma and 
take a look.'' And I was on my way to Vietnam and Thailand, as 
a private citizen, as a writer at the time. I went over, and I 
spent 8 days with him. And it was clear, even then, that these 
were people who were cut off from the world. When you see this 
kind of an explosion, you see a great deal of frustration that 
has been largely the result of people not having the kind of 
assistance in their effort to have some sort of freedom that 
they deserve, and part of that is through this democracy push, 
and part of it, quite frankly, is through other approaches that 
I don't think we've been strong enough, in terms of trying to 
put into place.
    We should keep in mind that this is a region that is filled 
with autocratic regimes. We speak of China. China's not a 
democracy. China does this to its own people. We can look at 
North Korea, it's the same way. We can look at Vietnam. And I 
spent a good bit of time, as did Senator Kerry, working with 
the normalization process in Vietnam. When I first went to 
Vietnam--when I first returned to Vietnam, in 1991, it was a 
Stalinist state. Vietnamese citizens had to get internal 
passports to travel from one province to another. We could put 
all the sanctions in the world on them, and you should be 
taking actions to condemn this sort of repressive activity, 
but, unless you have some other approach that goes along with 
it, you're not going to bring change. And, in Vietnam, we 
forced them to come out. We opened them up. We brought their 
mid-level bureaucrats into the United States. We did a whole 
series of things, including starting trade relations.
    When you have people who are cut off from the world, and 
when you have pressures like we've been putting on them, it 
only works if everybody else is doing it. And, in this 
situation, you have the type of pressure which is driving 
authoritarian governments toward like partners; China being the 
classic example, with respect to Burma. But we have to live in 
the reality that we're not getting the kind of support that we 
could from China, or from India, or from Russia.
    So, in terms of the long-term solution of this, I am really 
interested in hearing from people as to how we can resolve this 
situation.
    And, with that, I'll just look forward to hearing from the 
witnesses.
    Thank you.
    Senator Boxer. Thank you.
    I'm very pleased that my friend and colleague from 
California, Senator Feinstein, has joined us. And what we're 
going to do is hear first from Senator McConnell, then Senator 
Feinstein, then we'll go to the State Department.
    And I just want to say to both of you, I think your sitting 
there together is, just, a very good sign for the people in 
this country who want to see us work together. And I think 
Senator Murkowski and I working together to get this going so 
quickly is another such sign. And I think it augers well, and I 
hope it means that we will do something about this, that, as we 
all know, is so critical, because we're shining the light, and 
we've got to keep the light on.
    So, Senator McConnell, thank you for your long-term 
interest in this. And we're very pleased that you're here, and 
you have 8 minutes to make your statement.

 STATEMENT OF HON. MITCH McCONNELL, U.S. SENATOR FROM KENTUCKY

    Senator McConnell. Thank you, Senator Boxer, Senator 
Murkowski, and Senator Webb.
    Madam Chairwoman, I'll just ask that my statement be made a 
part of the record, and then just----
    Senator Boxer. Without objection.
    Senator McConnell [continuing]. Provide some observations 
about the situation in Burma.
    I got interested in Burma, like a lot of Americans, in the 
early 1990s, through reading an article about Aung San Suu Kyi 
and her quest for democracy. And, as we all know, she's spent 
most of the last 18 years under house arrest.
    What have we tried to do about it? Well, in 2003, I, along 
with Senator Feinstein and Senator McCain, introduced the 
Burmese Freedom and Democracy Act which we've renewed on an 
annual basis for 5 years now; every year since 2003. The 
President, as we all know, a while back also ratcheted up a 
number of U.S. sanctions by targeting members of the regime. 
But, as Senator Kerry has said, as you've said, Senator Boxer, 
as you've said, Senator Murkowski, and as you've said, Senator 
Webb, unilateral sanctions almost never work; in fact, I can't 
think of a single situation where they have worked. The one 
time where global sanctions did clearly make a difference was 
in South Africa, and that was because everybody participated.
    The problem here is obvious. China, India and Thailand are 
the key players. Thailand and India are two countries that, a 
while back, seemed to be sympathetic with the reformers, but 
now have adapted to the repressive conditions there. None of 
the neighbors seem to have much interest in applying the real 
pressure that would bring about a positive change. China and 
India are the two biggest players in Burma. Their attitude 
seems to be largely, ``It would be bad for business to start 
siding with the prodemocracy forces.'' That's not entirely 
unexpected from a country like China, but from India, the 
world's largest democracy, right next door, it is really kind 
of surprising, the ambivalence which they demonstrate toward 
offsetting reform in Burma.
    The Europeans, I think, have been somewhat better. But a 
sanctions regime is only going to work to the extent the 
Chinese, the Indians and the Thais are deeply involved in this. 
And so, I think the path is clear, although it's not easy to 
get there. The U.S. needs to continue to pressure our friends 
in that part of the world to take this matter seriously.
    I'll wager that if Burma had nuclear weapons, we'd be 
really interested in this. I mean, they are a pariah regime, 
like Iran and like North Korea. We focus intently on the other 
two because of our concern about the nuclear problem. The 
Burmese junta is a similarly outrageous regime. The good news 
is, there are not many of these pariah regimes left in the 
world, but this is clearly one of them.
    So, I'd be interested in hearing, later, any suggestions 
any of you have, but I think, as each of you has suggested, the 
only way this is ultimately going to make a difference, in 
terms of sanctions that bite, is with China, India and the 
Thais, as well, buying into a sanctious regime.
    So, I thank you, Senator Boxer, for having the hearing. I 
appreciate the opportunity to be here and express, along with 
all of you, my frustration. I can't think of an issue I've 
spent more time on over a longer period of time and seen less 
results, and it's because we are, to some extent, powerless 
without the cooperation that you, Senator Kerry and others, 
were talking about. Ultimately the world needs to treat this as 
a serious problem rather than just some kind of unacceptable 
behavior that we're willing to tolerate because it's a long way 
away.
    So, thank you for having the hearing. I think we ought to 
all continue to pressure our trading partners and allies out in 
that part of the world, who could really make a difference if 
they took an interest in this and decided to apply the kind of 
multilateral pressure that could really bring this regime to 
its knees and bring about the fundamental change that we need: 
Change that people of Burma already voted for in 1990. They've 
had their vote. It just hasn't been honored.
    So, thank you very much for the opportunity. I appreciate 
the chance.
    [The prepared statement of Senator McConnell follows:]

 Prepared Statement of Hon. Mitch McConnell, U.S. Senator From Kentucky

    Chairwoman Boxer, Ranking Member Murkowski, thank you for inviting 
me to make a statement today about the situation in Burma.
    Democratic reform in Burma is an issue that I have taken a great 
interest in for many years. I am pleased that the issue today enjoys 
strong bipartisan support in Congress. This was reflected in the sense 
of the Senate that passed this Monday, condemning the regime for its 
barbaric behavior.
    The Burmese junta's recent attacks against peaceful protestors were 
despicable and an affront to free people everywhere. However, simply 
because the ruthlessness of the Burmese regime is slipping off of the 
front pages does not mean that the heavy hand of that government has 
been lifted.
    Just this morning, the Associated Press reported that Burmese 
soldiers were driving through the streets of Rangoon looking to round 
up protestors who had previously escaped their clutches.
    There are some encouraging signs, however. News reports indicate 
that the European Union is nearing agreement on ratcheting up sanctions 
against the Burmese regime.
    Ultimately, the United Nations Security Council will need to take 
meaningful action on sanctions for the junta to be pressured into 
changing its behavior and embracing peaceful reconciliation. And that 
means that China will need to be persuaded of the need to take the 
regime to task.
    It also means that India will need to join its fellow democracies 
and play a more constructive role in pushing for democratic reform 
within Burma. As both China and India mature into their respective 
roles as economic, regional, and global powers in this century, more 
will be expected of them in both word and deed. The cause of reform in 
Burma is just such an area.
    I think hearings such as this are crucial to keep public attention 
focused on the repression in Burma and to make it more difficult for 
China and India to evade their responsibilities as global stakeholders. 
And I very much appreciate the committee's efforts in this vein.

    Senator Boxer. Senator, thank you so much. And we know that 
you have other obligations, and we do thank you. And I think 
your presence here, as well as all my colleagues today, so 
eloquent--I think it's the first step, at least at this point, 
to really shining the light on this. And we will figure out 
ways to keep the light on it, and we'll all work together. And 
thank you.
    Senator Feinstein.

     STATEMENT OF HON. DIANNE FEINSTEIN, U.S. SENATOR FROM 
                           CALIFORNIA

    Senator Feinstein. Thank you very much, Madam Chairman. I 
appreciate your holding these hearings.
    I very much agree with what I heard Senator Webb say, and, 
of course, what the Republican leader said, I agree with. And 
I've been working with him since 2003.
    Now, I think, just to get the historical record complete, 
we began this effort in 1997. Bill Cohen and I introduced a 
resolution which essentially banned new United States 
investment in Burma. It had a trigger to go into effect, and 
that trigger was that the Government of Burma release Aung San 
Suu Kyi and take some steps to rapprochement. Six months after 
we passed it and the President--President Clinton signed it, 
Madeleine Albright went to the area, and she talked with the 
ASEAN nations. It became clear that what we had hoped, which 
was that ASEAN would step in and encourage the junta to make 
change, did not take place. President Clinton then triggered 
those sanctions, and they have been in place ever since 1997. 
That's banning United States investment. What Senator McConnell 
and I did in 2003 is a ban on imports. So, ban on investment 
has been in place since 1997, and a ban on imports, since 2003.
    Senator Webb is right, if you're alone on a sanction, it 
doesn't work. If the whole world joins in a sanction, as 
Senator Kerry has pointed out with respect to the South African 
sanctions, it works.
    Last night, Senator Durbin called a small meeting. Senator 
Kerry was present, Senator Lieberman, I was present, and we met 
with the Chinese Ambassador and had a very frank conversation 
urging the Ambassador to please move forward with this country 
to take--to step up to the plate. The Ambassador told us that 
China had weighed in and that China, in effect, was responsible 
for securing the--Mr. Gambari's meeting with the head of the 
junta. They also gave us--and I'm not advocating for China, 
here, but I'm simply stating what he told us, because I think 
it's important, because China shares a very long border with 
Burma and is a very important trading partner, has major 
investments, et cetera.
    This is Premier Wen Jiabao holding a telephone talk with 
his British counterpart, Gordon Brown. And this is what the 
Chinese Premier said, ``China is very much concerned with the 
situation in Myanmar. China hopes that all parties concerned in 
Myanmar show restraint, resume stability through peaceful means 
as soon as possible, promote domestic reconciliation, and 
achieve democracy and development. The international community 
needs to offer constructive assistance for the final settlement 
of the Myanmar problem.'' The Chinese Premier said that, 
``China will continue to work with the international community 
to actively facilitate the proper solution to the problem in 
Myanmar.''
    Attached is a statement from a Chinese Foreign Ministry 
spokesman on Myanmar, as well, and I'd like to ask that both of 
these be entered into the record, if I might.
    Senator Boxer. Without objection.
    [The statements previously referred to follows:]

 Premier Wen Jiabao Holds Telephone Talks With His British Counterpart 
                              Gordon Brown

    Chinese Premier Wen Jiabao talked with his British counterpart 
Gordon Brown on the situation in Myanmar by telephone on the evening of 
September 28, 2007.
    In the conversation, Brown said that the international community is 
greatly concerned with the situation in Myanmar, expecting the 
Southeast Asian nation to restore stability, realize reconciliation and 
start political process as soon as possible. The British side hopes 
that China will continue to exert positive influence to achieve a 
proper settlement of the problem in Myanmar, and is willing to keep 
closer contacts and communication with the Chinese side, said the 
British Prime Minister.
    Premier Wen, for his part, said that China is very much concerned 
with the situation in Myanmar. China hopes that all parties concerned 
in Myanmar show restraint, resume stability through peaceful means as 
soon as possible, promote domestic reconciliation and achieve democracy 
and development, he said. The international community needs to offer 
constructive assistance for the final settlement of the Myanmar 
problem, he added. The Chinese premier said that China will continue to 
work with the international community to actively facilitate the proper 
solution to the problem in Myanmar.
                                 ______
                                 

 Chinese Foreign Ministry Spokesperson on Myanmar Issue, September 27, 
                                  2007

    As a neighbor of Myanmar, China follows closely the situation 
there. China hopes that all parties in Myanmar exercise restraint and 
properly handle the current issue so as to ensure the situation there 
free from further escalation and complication. Myanmar's stability 
should not be affected. Neither should peace and stability in the 
region be affected.
    We hope that Myanmar be devoted to improving people's welfare, 
maintaining national harmony and properly dealing with its domestic 
social conflicts so as to restore stability at an early date.
    China noted that the Security Council held consultation on the 
situation in Myanmar and the Chairman of the Council talked to the 
press on the issue. China believes that the international community 
should provide constructive assistance to alleviation of the domestic 
situation in Myanmar. China supports the mediation efforts of the U.N. 
Secretary General and his Special Envoy Gambari.
    China hopes that the international press can be truthful in 
reporting and cover the issue objectively rather than hyping up the 
issue. We have noted that a very few press unleashed some accusation 
against China, which is vicious defamation.

    Senator Feinstein. Now, I think--and the reason I read this 
is that China, I think, has taken the first step--I think we 
should, in every way, shape, or form we can, encourage China to 
really step up and to really interface with the junta 
leadership, and really say two things, ``You must stop the 
killing, you must release the political prisoners, and you must 
free the duly elected President of this country, Aung San Suu 
Kyi, elected in 1990, and sit down and have negotiations.''
    I do not believe that our country, or China, if China is 
going to be a world player, can really turn their head on a 
democratically elected government and not work for that 
government to be placed into power. So, my hope is that China 
will, in fact, step up and carry out these missions.
    I do not believe that unilateral sanctions work. And my 
final point would be--and sitting here with the State 
Department here--I think that State really ought to pull 
together India, China, the other major powers of the region and 
encourage ASEAN to come off of this impartial kind of 
nonconfrontational stance of theirs and join us in both an 
investment and an import ban, with sanctions, if sanctions are 
to work, or else achieve a compromise with the government that 
involves the release of Aung San Suu Kyi, the stopping of the 
killing, and also the release of those political prisoners. 
Those are the three big issues, as I see them right now. So, 
I'd like to ask that my full remarks be entered into the 
record. And also, when I wrote to the State Department earlier, 
I'd like to enter a letter of September 24th from the State 
Department on this issue into the record, as well.
    Senator Boxer. Senator, all that will be entered in the 
record, and we all thank you so much----
    Senator Feinstein. Thank you.
    Senator Boxer. We all thank you so much, and----
    Senator Feinstein. Appreciate it.
    Senator Boxer.--I really do appreciate your shining the 
historic light of recent history, in terms of congressional 
action. I think it's----
    Senator Feinstein. Oh, may I say----
    Senator Boxer. Law of the Sea--very helpful.
    Senator Feinstein [continuing]. One other thing?
    Senator Boxer. Of course.
    Senator Feinstein. As Senator Murkowski knows and you know, 
all the women of the Senate----
    Senator Boxer. Yeah.
    Senator Feinstein [continuing]. Both political parties----
    Senator Boxer. Right.
    Senator Feinstein [continuing]. Have written to the United 
Nations. We also sat, when the First Lady came, with her and 
made statements, signed letters. And I know that Mrs. Bush is 
very involved, and, I think, can be a very positive force for 
some action. So, I hope we will include the administration, as 
well, in whatever effort----
    Senator Boxer. Yes. Let me assure you, we have already 
placed--she wrote a letter to myself and Senator Murkowski 
especially for this hearing----
    Senator Feinstein. Good.
    Senator Boxer [continuing]. And we have included it in the 
record, and, absolutely, you're right, if--we just need to keep 
all these going; and, no matter what else we've got to do, 
we've got to work.
    Thank you very much for your----
    Senator Feinstein. Thank you----
    Senator Boxer [continuing]. Contribution to today's----
    Senator Feinstein [continuing]. Very much.
    Senator Boxer [continuing]. Hearing.
    [The prepared statement of Senator Feinstein and letters 
follow:]

    Prepared Statement of Hon. Dianne Feinstein, U.S. Senator From 
                               California

    Good afternoon, Madame Chair. Thank you very much for inviting me 
here today to speak about the brave quest of the people of Burma for 
democracy and freedom.
    In recent weeks, we have witnessed the largest democratic 
demonstrations in almost 20 years.
    Tens of thousands of Burmese citizens have taken to the streets in 
peaceful demonstrations to speak out against the country's oppressive 
military regime, the State Peace and Development Council. They are 
crying out for human rights, democracy, and the rule of law.
    I have watched these courageous people with a deep sense of 
admiration and respect.
    Led by respected Buddhist monks, the people of the ``Saffron 
Revolution'' have called on the military junta to release all political 
prisoners, including Nobel Peace Prize Laureate Aung San Suu Kyi, and 
engage in a true dialogue on national reconciliation.
    Suu Kyi, the nation's duly elected democratic leader, has remained 
under house arrest for the better part of the past 17 years.
    Yet the country's brutal military regime has continued to refuse to 
recognize the results of the 1990 democratic election. Under their iron 
fist, the people of Burma have suffered numerous human rights abuses.
    And as it has in the past, the military junta has responded to the 
recent peaceful protests with violence and bloodshed. Soldiers have 
used brutal force to break up the protests, beating, and sometimes 
killing innocent civilians.
    Reports indicate that hundreds of protesters, including many monks, 
have lost their lives and the monasteries are now deserted.
    We must not let the military junta get away with its actions.
    Last week, at the United Nations, President Bush announced that the 
United States would place additional sanctions on the members of the 
ruling military junta and their financial backers to compel the regime 
to refrain from violence and negotiate a political settlement with the 
democratic opposition.
    First Lady Laura Bush added her voice to raise awareness about the 
situation in Burma and to express her support for the protesters.
    And as you know, Madame Chair, we, the members of the Senate 
Women's Caucus on Burma, also expressed our solidarity with the 
prodemocratic protestors.
    We called on the international community to put pressure on the 
regime to free the political prisoners and being a true dialogue on 
national reconciliation.
    The international community must come together to put pressure on 
the regime to stop the violence and the killing, release all political 
prisoners and put Burma on an irreversible path toward true democratic 
government.
    I am pleased that United Nations Special Envoy Ibrahim Gambari has 
traveled to Burma and has met twice with Suu Kyi and the leader of the 
junta, General Than Shwe.
    Last night, Senators Durbin, Lieberman, Kerry and I met with 
China's Ambassador to the United States and urged his government to do 
more to urge the regime to stop the killing in Burma and release all 
political prisoners. He shared with us a copy of a statement from 
Premier Wen Jiabao on the situation in Burma and I would like it to be 
included in the record.
    Burma's neighbors with the closest ties to the regime--China, 
India, Russia, and the Association of Southeast Asian nations--must 
make it clear that further violence will not be tolerated. And that 
there will be consequences if the regime does not take action soon.
    Instability and violence in Burma affect the entire region and it 
is in China's interest to have a safe, secure, and democratic Burma on 
their borders.
    Madame Chair, I have been involved in working to bring peace and 
democracy to Burma for over 10 years.
    In 1997, former Senator Bill Cohen and I authored legislation 
requiring the President to ban new U.S. investment in Burma if he 
determined that the Government of Burma had physically harmed, 
rearrested, or exiled Aung San Suu Kyi or committed large-scale 
repression or violence against the Democratic opposition.
    President Clinton issued the Executive order in 1997 and the ban 
remains on the books today.
    In 2003, after the regime attempted to assassinate Aung San Suu 
Kyi, Senator McConnell and I introduced the ``Burmese Freedom and 
Democracy Act of 2003'' which placed a complete ban on imports from 
Burma. It allowed that ban to be renewed 1 year at a time for up to 3 
years.
    It was signed into law and has been renewed 1 year at a time for 
each of the past 4 years.
    The problem is, these sanctions will not work unless all nations 
join us.
    Unfortunately, we have not seen other countries rally to our cause 
and enact similar measures.
    I hope they will now see fit to change course.
    Although I have been disappointed that more progress toward the 
release of all political prisoners and the restoration of democratic 
government has not been made, I have never wavered in my conviction 
that the people of Burma yearn to be free.
    Madame Chairman, to the people of Burma I say this: We are 
watching, we are paying attention, and we will not give up on our 
shared vision of a free and democratic Burma.
                                 ______
                                 
                                               U.S. Senate,
                                   Washington, DC, August 29, 2007.
Hon. Condoleezza Rice,
Secretary of State, U.S. Department of State,
Washington, DC.
    Dear Secretary Rice: The current situation in Burma merits a 
strong, and meaningful response by our government. We write to urge you 
to immediately initiate an emergency, formal meeting on Burma at the 
United Nations Security Council.
    Over the past several days, as was reported in the press around the 
world, Burma's military regime has carried out a widespread crackdown 
on human rights and democracy activists throughout the country. These 
repressive measures have come in response to the largest nonviolent 
demonstrations in Burma in five years.
    Many of the activists who have been imprisoned as a result of this 
crackdown were reportedly beaten and carted off in trucks after 
protesting on the streets of Rangoon and Burma's other major cities. 
Those arrested include Min Ko Naing and Ko Ko Gyi, two of Burma's most 
prominent democrary activists. Many of these activists reportedly face 
life sentences for exercising the fundamental right of political 
expression. These actions by the regime are appalling even in light of 
the junta's longstanding and well-documented record of repression.
    We applaud the State Department for swiftly condemning the regime's 
brutal behavior. France and the United Kingdom, two other permanent 
members of the Security Council, have issued similar condemnations, 
along with Canada, Sweden, Ireland, Denmark, the European Union, and 
the U.N. High Commissioner for Human Rights. However, at this critical 
juncture, words of support from the world's democracies are not enough. 
The matter needs to be addressed by the U.N. Security Council.
    During the past year, the United States led a successful diplomatic 
effort to place Burma on the permanent agenda of the Security Council, 
where it remains. We must avail ourselves of this diplomatic forum, the 
brave people of Burma deserve no less.
    We urge you to send a letter to the President of the Security 
Council requesting that U.N. Secretary General Ban Ki-moon, at a 
minimum, thoroughly brief the Council on the situation in Burma.
    Thank you for your prompt attention to this serious matter.
            Sincerely,
                                   Mitch McConnell,
                                           United States Senator.
                                   Dianne Feinstein,
                                           United States Senator.

                                 ______
                                 
                                  U.S. Department of State,
                                Washington, DC, September 24, 2007.
Hon. Dianne Feinstein,
U.S. Senate,
Washington, DC.
    Dear Senator Feinstein: Thank you for your letter of August 29 
urging a formal meeting of the United Nations Security Council on the 
situation in Burma.
    We are deeply concerned about the recent crackdown in Burma and 
have issued a number of statements condemning this most recent 
repression by the military regime. We continue to coordinate closely 
with other like-minded countries and key players in the region to bring 
increasing pressure on the regime to change its policies. We have also 
raised our concerns with U.N. Secretary General Ban and Special Envoy 
Gambari and encouraged them to speak out strongly as well. We agree 
that the political and human rights situation there is a matter that 
the U.N. Security Council should take up urgently, so we are pleased 
that Special Envoy Gambari will brief the Council in informal 
consultations on September 20. We are encouraging Special Envoy Gambari 
to travel to Burma as soon as possible, and we are working directly 
with Security Council members and other international partners to build 
support for a formal meeting of the Security Council on Burma following 
his return from Burma.
    In addition to pursuing the Security Council's engagement on Burma, 
we will use the platform provided by the U.N. General Assembly to 
highlight the regime's repression of peaceful demonstrators and its 
other abuses against the Burmese people. We believe that an 
international community that is united and vocal in its criticism of 
the regime is the best vehicle for bringing about the kinds of changes 
we seek, as well as give hope and support to those in Burma struggling 
to bring democracy to their country.
    We hope this information is helpful to you. Please do not hesitate 
to contact us if we can be of further assistance on this or any other 
matter.
            Sincerely,
                                        Jeffrey T. Bergner,
                          Assistant Secretary, Legislative Affairs.

    And, just for the interest of the Senators who are here----
    Senator Cardin, do you want to make a statement, or would 
you wait until your question time? It's your call. It's 
whatever you want to----
    Senator Cardin. I'll defer, at this moment, so we can----
    Senator Boxer. OK.
    Senator Cardin [continuing]. Get to the witnesses.
    Senator Boxer. Thank you very much.
    And what I wanted to say was, Senator Feinstein and 
McConnell, those Senators were panel two. So, we've done panel 
two, we will go to panel one, and then panel three. And panel 
one is a panel of one.
    Mr. Marciel, thank you very much. And please proceed for 6 
minutes, if you can.

 STATEMENT OF SCOT MARCIEL, DEPUTY ASSISTANT SECRETARY, BUREAU 
    OF EAST ASIAN AND PACIFIC AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Marciel. Madam Chairman, Ranking Member Murkowski, and 
members of the subcommittee, thank you very much for inviting 
me here today to testify about the situation in Burma.
    I'd ask that my full written testimony be entered into the 
record, and then I'll try to be very brief in my oral comments.
    We've all seen the gripping photos, right in front of us, 
of saffron-robed monks and the brave civilians of Burma taking 
peacefully to the streets in the thousands to press the case 
for dialog and democracy, only to be met with blunt end of 
baton sticks, clouds of teargas, automatic weapons, mass 
arrests, and worse. The exact number of casualties is not 
clear, and, unfortunately, we may never know. The regime admits 
to 10 deaths. The true number of fatalities is likely many 
times that number, with hundreds, if not thousands, arrested. 
The regime's violent crackdown this past week on peaceful 
dissent by its own people is an outrage. I would note that our 
reports indicate the arrests are continuing.
    The brutal suppression of peaceful protest has only 
reinforced this administration's commitment at the highest 
levels to ensure that democracy is realized in Burma. President 
Bush and Secretary Rice have led the international community's 
outraged response to the regime's actions, forcefully raising 
the issue at the U.N. General Assembly, in public statements, 
and with leaders and senior officials from key governments in 
the region. We've backed up our words with actions to ratchet 
up pressure on the regime. We've tightened financial sanctions 
and visa bans on senior regime officials, and we're now 
exploring followup measures targeting the regime and those who 
provide financial support to it.
    Second, we are working to turn the international outrage 
into increased pressure on the regime to move in a positive 
direction. We're coordinating closely with the British, the 
French, and other like-minded partners. We're reaching out to 
the ASEAN nations whose Foreign Ministers issued an 
unprecedented statement last week directly criticizing the 
regime and urging the kinds of political reforms we have been 
seeking. It's clear that ASEAN's patience with Burma has worn 
very thin, and we believe ASEAN can play an important role 
encouraging dialog and progress.
    We also are pressing some key players in the region that 
have been more hesitant to speak out. Japan is one of those 
countries, at least until the last few days. We appreciate 
Japan's recent public calls for restraint and indications it 
may be considering some form of sanctions, but we also look to 
Japan to do more.
    After not speaking out for a long time, India, yesterday, 
called upon the Burmese military to investigate incidents of 
excessive use of force against prodemocracy protesters. That 
was a positive step, but India can and should do more, given 
its influence with the regime.
    China probably has the most influence in the regime. While 
we have indications that Beijing has been quietly pressing 
junta leaders to exercise restraint, and was helpful in 
facilitating U.N. Special Envoy Gambari's visit and meetings 
this week in Burma, we think China can do more. We have been 
pressing, and we will continue to press, Beijing to do more.
    The other pillar of our diplomatic strategy remains the 
United Nations. We endorse and support the mission of U.N. 
Special Advisor Gambari, who was just in Burma this week. We're 
still awaiting word on the results of his visit and his 
discussions with Senior General Than Shwe and his two meetings 
with Aung San Suu Kyi. Our hope is that Mr. Gambari has been 
able to catalyze a dialog between the generals and the leaders 
of the prodemocracy movement, but that remains to be seen.
    We're also fully committed to having Burma remain an active 
issue for the U.N. Security Council. We expect Mr. Gambari to 
brief the Security Council in a formal session upon his return 
to New York. Based on his report, and in consultations with our 
partners, we'll decide on what additional actions or measures 
to take up in the Security Council in the coming weeks.
    Madam Chairman, I would be less than truthful if I told you 
there was an easy solution to solving Burma's political 
problems and putting it on a path to genuine democracy. The 
primary obstacle to progress in Burma, as we all know, is a 
military that's been entrenched in power for over 40 years. The 
regime has propagated the myth that the military is the only 
institution in Burma that can hold the country together and 
resist the force of separatism from the ethnic border areas. 
The Burmese military has insinuated itself, over four decades, 
into every fiber of the country, and runs a parallel economic 
system that sustains it while impoverishing the rest of the 
country. One pundit recently described Burma not as a ``country 
with a military,'' but, rather, as a ``military with a 
country.''
    Recognizing this reality, our approach over the past few 
years has focused on building international pressure on the 
regime to engage in a truly inclusive dialog with the 
democratic opposition, led by Aung San Suu Kyi, and with the 
ethnic minority groups, leading to a genuine political 
transition from military rule to civilian-led democracy. This 
is what Burma's democratic opposition has said it wants.
    The immediate prospects for progress in Burma, admittedly, 
looked dimmer after the events of last week, but we believe 
that through perseverance and concerted efforts with our 
partners and others, we can help bring a better democratic 
future to Burma and its neighbors--sorry--Burma and its people.
    Thank you for the opportunity to testify. I look forward to 
your questions.
    [The prepared statement of Mr. Marciel follows:]

Prepared Statement of Scot Marciel, Deputy Assistant Secretary, Bureau 
     of East Asian and Pacific Affairs, U.S. Department of State, 
                             Washington, DC

    Madame Chairman, Ranking Member Murkowski, and members of the 
subcommittee, thank you for inviting me here today to testify about the 
ongoing crisis in Burma and our efforts to help bring democracy to that 
country and an end to 40-plus years of repressive military rule. We 
have all seen the gripping photos of saffron-robed monks and brave 
civilians taking peacefully to the streets in the thousands to press 
the case for dialog and democracy, only to be met with the blunt end of 
baton sticks, clouds of tear gas, automatic weapons, mass arrests, and 
worse.
    The exact numbers of casualties suffered over the past several days 
in Burma is not clear and, unfortunately, may never be known. The 
regime admits to only 10 deaths. The true number of fatalities is 
likely many times that number. We have also seen troubling pictures on 
the aftermath of the regime's raids on monasteries and homes of 
activists. We know that those random raids have continued. Our Embassy 
reports that hundreds of people or more have been arrested, and we 
believe that they are being kept in unimaginably inhumane conditions. 
The regime's violent crackdown this past week on peaceful dissent by 
its own people is an outrage, and something we and the international 
community cannot and will not accept.

           VIGOROUS U.S. AND INTERNATIONAL COMMUNITY RESPONSE

    In reaction to the regime's brutal crackdown, the international 
community has responded with a crescendo of outrage, revulsion, and 
calls for the junta to halt the violence and begin a true dialog with 
Burma's democratic opposition. Our efforts have focused on ensuring 
that this outrage channels into greater pressure on the regime to 
change. President Bush and Secretary Rice have led the charge, 
forcefully raising the issue at APEC in Sydney, the U.N. General 
Assembly, in public statements, and with leaders and senior officials 
from key governments in the region, including China, India, Japan, and 
countries in the Association of Southeast Asian Nations (or ASEAN). The 
First Lady's continued attention to the tragedy in Burma has also 
helped to keep the issue squarely in the public eye, as have 
resolutions and letters from Members in both the Senate and House.
    The United States has also backed up its words with actions that 
will serve to ratchet up pressure on the regime. Last week, the 
Department of the Treasury designated 14 senior regime officials under 
Executive Order 13310, which authorizes the blocking of assets in U.S. 
jurisdiction belonging to senior officials and other designated 
persons. The Department of State also identified senior regime 
officials and their immediate family members--over 200 individuals--as 
subject to the Presidential proclamation that suspends the entry into 
the United States of persons who formulate, implement, or benefit from 
policies that impede Burma's transition to democracy. We are now 
exploring followup measures targeting the regime and those who provide 
financial support to it.
    At the same time, as the President made clear in his speech to the 
United Nations General Assembly on September 25, that although we will 
tighten sanctions, we also will ``continue to support the efforts of 
humanitarian groups working to alleviate suffering in Burma.'' The 
State Department is seeking ways to increase humanitarian assistance 
and support for the movement to restore democracy in Burma.
    The United States, of course, has not been alone in this endeavor. 
The British, French, and other like-minded partners, in close 
coordination with us, have been equally forceful in their condemnation 
of the regime's actions and have pressed for strong measures. The EU 
warned the regime on September 25 that it would reinforce and 
strengthen existing sanctions if the junta resorted to violence against 
unarmed and peaceful protestors and we understand that it is now 
considering such actions. And on September 27, the Government of 
Australia announced its intention to implement targeted financial 
sanctions against regime figures and supporters. Perhaps even more 
significant, however, has been the unprecedented statement by ASEAN 
Foreign Ministers last week in New York directly criticizing the regime 
and calling for restraint and urging the kinds of political reforms we 
have been seeking. It is clear that ASEAN's patience with Burma has 
worn very thin and last week's sharp words for the regime indicate the 
organization will no longer automatically circle the wagons and protect 
a member whose behavior has gone beyond all acceptable norms. We will 
continue to engage with ASEAN and its individual members to ensure that 
pressure on the regime from this influential regional body is 
sustained.
    While many countries and regional organizations, like ASEAN, have 
stepped up and spoken out against the regime and the crackdown; some 
key players in the region have been hesitant do so. Japan is one of 
those countries. We appreciate Japan's recent public calls for 
restraint and indications that it may be considering some form of 
sanctions. We also welcome the visit to Burma this week of Deputy 
Foreign Minister Yabunaka, who we understand will deliver a tough 
message to the regime, while seeking answers from the generals on the 
killing of a Japanese photo-journalist last week. But Japan, we think, 
can do more. We would encourage Tokyo to look closely at its assistance 
programs to see what kind of leverage can be applied there. We 
appreciate Foreign Minister Komura's statement October 3 that Japan 
will look closely at its economic assistance with a view to further 
narrowing that assistance.
    India is another country that can do more. In an improvement of its 
traditional policy of not interfering in the internal affairs or 
publicly criticizing Burma, India on October 2 called upon the Burmese 
military to investigate incidents of excessive use of force against 
prodemocracy protestors. This action follows Foreign Minister 
Mukherjee's public statement last week calling for restraint by Burmese 
authorities in dealing with the demonstrators. While we are aware of 
India's strategic and commercial interests in Burma, we believe they 
should not inhibit India's ability to forcefully advocate, both 
publicly and privately, for the regime to end the violence and initiate 
a genuine dialog with the democratic opposition. India's voice on this 
subject, at this time, is critical.
    Finally, China is the one country that everyone believes has the 
most influence on the regime and its policies. While we have 
indications that Beijing has been quietly pressing junta leaders to 
exercise restraint and was helpful in securing meetings for U.N. 
Special Envoy Gambari this week with Aung San Suu Kyi and the top 
generals, we think China can and must do more, much more. We have no 
illusions that China has the promotion of democracy and human rights at 
the top of or even on its bilateral agenda with Burma. However, we do 
know that China is concerned with ensuring its neighbor's stability and 
prosperity. Last week's events have illustrated again that the Burmese 
regime's rule has no legitimacy and popular support, and that absent a 
genuine dialog with the democratic opposition its ``roadmap'' process 
for political transition is a charade and a dead-end for both democracy 
and stability. We will continue to press Beijing to do more to promote 
national reconciliation in Burma based on dialog between the regime and 
the democratic opposition and ethnic minority groups. We will encourage 
China to step up to the challenge in a way commensurate with its 
emerging status as a global power. If it does not, then China will 
continue to be an appropriate target for growing international 
criticism.

               THE U.N., GAMBARI AND THE SECURITY COUNCIL

    The other pillar of our strategy to pressure the regime to affect 
genuine democratic reforms remains the United Nations. We fully endorse 
and support the mission of U.N. Burma Special Advisor Gambari, who was 
just in Burma this week. We are still awaiting word on the results of 
his visit and his discussions with senior General Than Shwe and Aung 
San Suu Kyi, with whom he met twice. Our hope is that Mr. Gambari has 
been able to catalyze a dialog between the generals and the leaders of 
the prodemocracy movement, but that remains to be seen. We also are 
fully committed to having Burma remain an active issue for the Security 
Council. We expect Mr. Gambari to brief the Security Council in a 
formal session shortly after his return from Burma to report on the 
results of his discussions and next steps for his good offices mission. 
Based on Mr. Gambari's report, and in consultations with our partners, 
we will decide what additional actions/measures to take up in the 
Security Council in the coming days. While we welcome the Human Rights 
Council's passage of a resolution on Burma, this in no way substitutes 
for continued Security Council engagement.

                             A WAY FORWARD

    Madame Chairman, I would be less than truthful if I told you that 
there is an easy solution to solving Burma's political problems and 
putting it on a path to genuine democracy. If it were easy, it would 
have been resolved years ago.
    The truth is that the primary obstacle to democratic change in 
Burma is a 400,000 strong military that has been entrenched in power 
for over 46 years. The military's officer corps finds it virtually 
inconceivable that they should surrender the commanding heights of 
power and governance to a democratic opposition composed of civilians. 
The regime has propagated the myth that the military is the only 
institution in Burma that can hold the country together and resist the 
forces of separatism from the ethnic border areas. The Burmese military 
has forcefully insinuated itself over four decades into every fiber of 
the country and runs a parallel economic system that sustains it while 
impoverishing the rest of Burma. One pundit recently described Burma 
not as a ``country with a military,'' but rather as a ``military with a 
country.''
    Recognizing this reality, that change will not come easily, our 
approach to Burma over the past couple of years has focused on building 
maximum international pressure on the regime to engage in a dialog with 
the democratic opposition, led by Aung Sang Suu Kyi, and the ethnic 
minority groups, leading to a genuine political transition from 
military rule to civilian-led democracy. This is what Aung Sang Suu Kyi 
and Burmese democracy activists, both within Burma and without, have 
said they want. They do not want the regime's ``roadmap'' process as 
constructed; that is a dead-end, as long as it does not involve the 
opposition in a genuine and open dialog.
    The brutal crackdown by the regime, first on democracy activists 
then on the monks and average citizens who bravely followed them into 
the streets, was outrageous and clearly a setback for the democratic 
aspirations of the Burmese people and our efforts to support those 
aspirations. That said, I can assure you that the administration 
remains committed at the highest levels to ensure that democracy is 
realized in Burma. We will intensify our bilateral actions to pressure 
the regime. We will continue to actively engage the key regional 
partners (e.g., China, India, Japan, ASEAN) and employ all appropriate 
measures to gain their support in pressing the regime for a democratic 
transition. We will continue to coordinate closely with like-minded 
partners in Europe and elsewhere in this endeavor. We will actively 
support Mr. Gambari's good offices mission to promote dialog and 
national reconciliation and urge others to do the same. We will also 
press for appropriate actions by the U.N. Security Council to help 
bring about the kind of changes we and the Burmese people seek.
    Madame Chairman, while the immediate prospects for progress in 
Burma may look dim given events last week, we believe that through 
perseverance and concerted effort with our partners and others, we can 
help bring a better, democratic future to Burma and its people.
    Thank you for this opportunity to testify before you this 
afternoon. I am pleased to answer your questions.

    Senator Boxer. Thank you. We'll keep questions to 6 
minutes.
    Mr. Marciel, thank you very much. During his address to the 
U.N. General Assembly last week, the President made a very 
good, strong statement about the situation in Burma, and he 
rightly stated the American people were horrified by it, and 
are horrified by it, and he made a strong statement, further, 
about tightening sanctions. He didn't seem to address the 
loophole that's in the bill, which I think requires tightening, 
which allows American companies to continue to do business in 
Burma. Now, it's all well and good for everyone to say the 
sanctions have to be multilateral. We agree. But if we still 
have a big loophole, I think that gives us a little bit of a 
lower moral ground.
    So, for example, the Chevron Corporation is one such 
company that continues to do business in Burma as part of the 
Yadana offshore gas project, the natural gas field that 
provides $400 to $600 million in revenues to the Burmese 
junta--$400 to $600 million every year to the junta.
    Arvind Ganesan, director of the Business and Human Rights 
Program for Human Rights Watch, has said, ``The Yadana project 
is probably one of the biggest revenue-raisers, if not the 
biggest revenue-raiser, for the Burmese Government, so it gives 
them the ability to do what they want. And, at the moment, the 
money is being used to fund the Burmese military's brutal 
crackdown on its citizens.''
    So, again, I just wonder, have you discussed this with the 
President? Is there a way that we could join together, the 
legislative and executive branch, to tighten up this loophole? 
Because it seems to me it sends a mixed message on our 
commitment if we have such a giant loophole and an--and 
Chevron--I don't mean to pick on them, they just happened to be 
doing business before the sanctions went into play--but they 
are, in essence, providing so much--hundreds of millions of 
dollars to the government every year. Could you respond to 
that?
    Mr. Marciel. Sure, Senator.
    Chevron, as you know, its investment or presence in Burma 
was grandfathered in----
    Senator Boxer. I understand.
    Mr. Marciel [continuing]. Under the 1997 law. What I would 
say is, you know, we're looking at everything, to be 
perfectly----
    Senator Boxer. Good.
    Mr. Marciel [continuing]. Honest.
    Senator Boxer. Good.
    Mr. Marciel. I think our view is that we've tried very 
hard--lots of administrations, with the strong support of 
Congress, have tried a lot of different things, and we haven't 
succeeded, so we have to be open and looking----
    Senator Boxer. Right.
    Mr. Marciel [continuing]. At every new----
    Senator Boxer. Well, I'm glad----
    Mr. Marciel [continuing]. Idea, and putting this----
    Senator Boxer [continuing]. You said that, because, again, 
that's a big loophole, seems to me.
    Mr. Marciel. Yeah. We are----
    Senator Boxer. Now----
    Mr. Marciel. We are looking at----
    Senator Boxer [continuing]. In terms of China, we've all 
spoken out on the importance of China here--is there any 
indication to you--Senator Feinstein put a statement in the 
record, et cetera--you know, when I hear a statement that says, 
``We ask all parties to show restraint,'' what does that mean? 
That means we're asking the people in their robes to no longer 
walk in peace? I worry about that statement, ``all parties to 
show restraint.'' So, I'm a little concerned about that type of 
statement. What's your analysis of where we are? If you think 
China's any way willing to scale back the hundreds of millions 
of dollars in military aid it provides the junta?
    Mr. Marciel. I would answer that in two ways. First, 
international pressure is key, and that means, really, 
everybody--us, the Europeans, the ASEANs, China, and India. So, 
China's involvement is very important.
    I think what I would say is that our sense is that China is 
concerned about the situation inside Burma, and we do believe 
they have weighed in, for example, to facilitate the U.N. Envoy 
Gambari's visit, perhaps to call for restraint. They have not 
yet shown a willingness to go beyond that. We're continuing to 
work on them. We have to continue doing that. And one question 
will be, when this issue comes before the Security Council in 
the coming days, how China reacts.
    Senator Boxer. OK. I'm running out of time, so I'm going to 
make one quick statement and then my last question.
    My quick statement is this. India. I mean, India is a model 
of democracy for the developing world. And, as you, yourself, 
have pointed out, where are they? Now, I happen to--I happen to 
be one of the very few people here who did not vote for the 
nuclear deal with India. But that deal is really important to 
India. I would hope that we can connect the dots here and say, 
``Look, if we're going to show the confidence in you to do 
this, then you need to help us here.'' Have you made those 
reach-outs to India in that direct a way?
    Mr. Marciel. Senator, I'm--to be honest, I'm--I know there 
have been a number of high-level discussions with the Indians. 
I don't know if it's been put exactly that way, but we have 
made it very clear to India that we felt that, particularly as 
a democracy, it needed to step up and use its influence with 
the regime to press for exactly the things that everyone here 
has talked about.
    Senator Boxer. OK. Well, I think you have some cards in 
your deck there. So, my last--since I have 30 seconds--the 
Government of Thailand does not allow the U.N. Refugee Agency--
UNHCR--to conduct refugee status determinations of Burmese. 
That means refugees fleeing Burma cannot currently be 
appropriately registered and provided with essential services. 
They are detained at the border, they're routinely returned. 
Where do we stand, in terms of Thailand and what they should be 
doing, in terms of an open border and registering refugees and 
so on?
    Mr. Marciel. Senator, that's a very good question. As you 
know, there are a lot of--millions of Burmese refugees in 
Thailand--or hundreds of thousands. If I could, I would like to 
get back to you with----
    Senator Boxer. OK.
    Mr. Marciel [continuing]. A fully thought-out answer, 
because I'm not sure----
    Senator Boxer. Sure.
    Mr. Marciel [continuing]. I have all the answers here.
    [The written information from Deputy Assistant Secretary 
Marciel follows:]

    There are over 140,000 Burmese refugees in Thailand. While some 
refugees fled Burma as long as two decades ago, asylum-seekers continue 
to flee to Thailand and other countries. Conditions in Burma do not 
permit these refugees to return to their home country. We appreciate 
the Royal Thai Government's cooperation with humanitarian 
organizations, the United States, and other donor governments in 
meeting the needs of these refugees.
    The Royal Thai Government conducts its own screening of the refugee 
claims of Burmese asylum-seekers through Provincial Admissions Boards 
(PABs), which were reestablished in recent years following close 
coordination with the Office of the United Nations High Commissioner 
for Refugees (UNHCR). The PABs were intended to continue reviewing the 
cases of any new Burmese asylum-seekers seeking entry into the refugee 
camps; however, the process has lapsed in several of the camps. UNHCR 
is now coordinating with Thai authorities in an effort to revitalize 
the screening process. The U.S. Government has encouraged the 
Government of Thailand to continue screening asylum-seekers and 
providing protection to any refugees.

    Senator Boxer. Thank you so much.
    Senator Murkowski.
    Senator Murkowski. There was an article in the Washington 
Post this morning about the number of refugees in Thailand. You 
look at the picture of, literally, house on--not even 
``house''--slum on top of slum, and appreciate the--just the 
devastating situation with the refugees there.
    Mr. Marciel, in terms of other possible sanctions that 
could be put in place, it's been suggested that Burma's fiscal 
policy is simply to raise enough money for the military, with 
little concern for any other activities. Outside of the current 
provisions within the Patriot Act and sanctions on money-
laundering and the prohibitions on new investments, what other 
financial policies might be available that we could put in 
place that might give us something that we haven't got, to this 
point in time?
    Mr. Marciel. First, in your--response to your first point, 
our sense is that the regime is getting enough hard currency to 
keep itself afloat, even as the country becomes more 
impoverished. We're still, to be honest, studying all the 
options out there on the sanctions. We--you know, we haven't 
reached any conclusions yet, beyond the additional sanctions 
that were allowed last week. So, we're still working on the 
answer to your question, to be perfectly honest. But it's a 
very high priority for us.
    Senator Murkowski. Well, we learned, with the situation in 
North Korea, that perhaps going after the financial 
institutions was something where you can put a squeeze on a 
regime and see some impact. So, certainly it's something that 
is--I'm sure you're reviewing and considering.
    Along the lines of North Korea, at the hearing that we had 
back in March 2006, I had mentioned, at that time, that some 
who were following the situation in Burma very closely had 
raised the possibility of some type of a six-party talk, 
similar or fashioned after what we were doing there in Korea. 
And Michael Green, who's one of the panelists coming up after 
you, had also suggested that we might want to be pushing for a 
common set of talking points, basically a roadmap as to how we 
go forward with other parties who share those same values with 
regards to Burma.
    Has there been any development along this front? Any 
further discussion about the roadmap, six-party talk, or in----
    Mr. Marciel. Well, there's been----
    Senator Murkowski [continuing]. That direction?
    Mr. Marciel. It's a good question. There's been intense and 
constant discussion about how we can work with countries in the 
region to put maximum pressure on the regime, not in a formal 
format like the six-party talks. And, of course, one big 
difference is that, in the six-party talks, you have North 
Korea. The Burmese haven't shown particular interest in 
participating in much of any dialog, either with their own 
people or with the international community. But what we have 
been doing is pushing very hard for the countries in the 
region, even if they have different approaches toward the 
regime, toward Burma--some have sanctions, some have trade, but 
to push for some common points, as you suggested. And those 
common points really have been: Release political prisoners; 
begin a genuine dialog with the opposition; allow U.N. and 
other international humanitarian organizations to do their 
work. So, those have been the common talking points that we 
have been pressing, with some success.
    Senator Murkowski. Let me ask you about the ASEAN nations, 
because they--you had mentioned the joint statement, the 
release that had come out from the ASEAN members expressing 
their revulsion over the use of the violence. Certainly there 
appears to be a sense of unity that's expressed in that letter. 
Is there a divide amongst the ASEAN members on how to approach 
Burma, or are they pretty much united on this?
    Mr. Marciel. I think ASEAN's position has evolved over the 
last 2 years. Two years ago, they were basically defending the 
regime in a unified ASEAN policy. About a year and a half ago, 
if I remember correctly, they ended that unified policy, and 
each country, sort of, freed, if you will, in the ASEAN 
context, to take up its own position. I think what we saw last 
week is a unified ASEAN position--unified, with the exception 
of Burma--the other nine members taking a very strong stance on 
insisting that the regime had to begin a political dialog, end 
the violence, release political prisoners. I think, to that 
extent, ASEAN--the rest of ASEAN, the nine--are unified. As we 
go further and look to ASEAN member--as an entity and as 
individual members to step up pressure, I mean, we'll--we're 
going to have to see how much unity there is. But I think----
    Senator Murkowski. Does the----
    Mr. Marciel [continuing]. Overall the----
    Senator Murkowski. Does the military junta, then, take 
advantage of the fact that you do have members who are coming 
at it from a different perspective? Are they capitalizing on 
that?
    Mr. Marciel. I'll tell you, my sense, at this point, is 
that it's much more unity in ASEAN. It's striking for----
    Senator Murkowski. But that is very recent. Is that 
correct?
    Mr. Marciel. That's--in--well, certainly, last week--I 
mean, the crackdown the last 10 days really has appalled 
everybody, including, I think, the ASEANs, as far as I can 
tell. It's very genuine revulsion at what they see. So, I think 
there's--there is unity that Burma has to change, has to begin. 
I think that's pretty clear.
    Senator Murkowski. Maybe that'll make the difference.
    Thank you, Madam Chair.
    Senator Boxer. Thank you, Senator.
    Senator Kerry.
    Senator Kerry. Thank you, Madam Chair.
    Mr. Marciel, I hate to say it, but what I hear is kind of a 
slow-walk diplomatic policy for a rather urgent humanitarian 
situation. Can you tell me, specifically what the 
administration is doing to get the Gambari mission on track?
    Mr. Marciel. Well, I mean, now, of course, Gambari, as 
you've said, has visited and has already left Burma, and is on 
his way back to New York.
    Senator Kerry. But he has an ongoing mission. He's been----
    Mr. Marciel. He has an----
    Senator Kerry [continuing]. Appointed by the----
    Mr. Marciel [continuing]. Ongoing mission.
    Senator Kerry [continuing]. Secretary General to be the 
mediator.
    Mr. Marciel. You're right, sir.
    Senator Kerry. What are we doing to further that mediation?
    Mr. Marciel. We have been pushing every country, that has 
any involvement in this at all very hard, to support his 
mission, and urging all countries to unify in support of----
    Senator Kerry. What are we doing----
    Mr. Marciel [continuing]. Its efforts.
    Senator Kerry [continuing]. To leverage that? I mean----
    Mr. Marciel. Pardon me?
    Senator Kerry. What are we doing to leverage that? As far 
as I can tell, the only public statements I've seen are from 
the President at the U.N., and the Secretary at the U.N. last 
week. Where are the President and the Secretary of State and 
Chris Hill yesterday and the day before yesterday and on the 
weekend, when people's lives are at risk? Where are they?
    Mr. Marciel. Well, I'll tell you, Senator, they have been 
very active on this issue----
    Senator Kerry. But we haven't----
    Mr. Marciel. Extremely active.
    Senator Kerry [continuing]. Heard anything, and we 
certainly haven't seen anything. What--can you tell us about 
that?
    Mr. Marciel. Well, they're--I could--I think, if you would, 
Senator, I could--we can pull together a list of the 
statements. That's just the public statements. There's been any 
number of diplomatic discussions, certainly in New York last 
week and over the weekend or any number involving, certainly, 
the Secretary of State and Assistant Secretary Hill and others, 
with ASEAN----
    Senator Kerry. Well, I think it would----
    Mr. Marciel [continuing]. With China----
    Senator Kerry [continuing]. Be interesting----
    Mr. Marciel [continuing]. And India----
    Senator Kerry. I would like the committee to have a record 
of those conversations and/or meetings.
    Mr. Marciel. Sure. We can do that.
    [The written information from Deputy Assistant Secretary 
Marciel follows:]

    Burma remains one of the administration's highest foreign policy 
priorities. President Bush, Secretary Rice, and other senior 
administration officials, including our ambassadors in key Asian and 
European countries and the United Nations, have forcefully and 
consistently expressed the United States outrage and condemnation of 
the recent crackdown in Burma, and called for an immediate cessation of 
the violence and release of all political prisoners, and initiation of 
a genuine multistakeholder dialogue toward democratic transition. 
President Bush met with ASEAN leaders during the APEC summit in 
September and stressed the need for regional pressure on the Burmese 
regime. In his remarks to the U.N. General Assembly, President Bush 
condemned the regime's crackdown on prodemocracy activists and 
announced tightened sanctions against regime leaders and their 
supporters. Secretary Rice and EU Foreign Ministers issued a joint 
statement on Burma, and we expressed our deep concerns about the 
situation there with ASEAN Foreign Ministers in New York during the 
U.N. General Assembly. Senior administration officials have urged 
leaders and senior officials from other countries, including China, 
India, and key ASEAN Member States, to fully support the U.N. good 
offices mission led by Special Advisor Gambari to bring about a genuine 
dialogue among the regime, Aung Sang Suu Kyi and the democratic 
opposition, and the ethnic minorities. We continue to actively engage 
with like-minded governments and the key countries in the region at the 
highest levels to mobilize international consensus and support for 
pressing the regime to take the tough steps necessary for a transition 
to a civilian, democratic government in Burma. Our strategy of bringing 
maximum pressure to bear on the Burmese regime to initiate the kind of 
reforms we seek also includes a ratcheting-up of our sanctions directed 
at regime leaders and their cronies. We continue to support those 
working to realize a transition to a civilian, democratic government in 
Burma and provide humanitarian assistance to the victims of the Burmese 
regime's misrule.

    Mr. Marciel. I should add, Under Secretary Burns also very 
active.
    Senator Kerry. So, what is--I mean, as everybody here has 
said--and I don't think there's much disagreement on it--
statements are not going to alter this, correct?
    Mr. Marciel. Right.
    Senator Kerry. OK. So, what's the policy to alter it?
    Mr. Marciel. Senator, the policy is: One, bilaterally, we 
maintain our own sanctions. I understand the concerns about----
    Senator Kerry. But that's not going to change it.
    Mr. Marciel. It's part of the pressure.
    Senator Kerry. Not evidently, no, it isn't. It hasn't 
changed anything in all these years.
    Mr. Marciel. That's correct, but we still----
    Senator Kerry. So, it's not part of the pressure.
    Mr. Marciel. Well, I guess we'd, respectfully, disagree, 
sir.
    Senator Kerry. Well, what pressure is it? If it hasn't 
changed anything, what pressure can you define?
    Mr. Marciel. Senator, it's very hard to know what the 
generals are thinking, but it's very important that we--it's 
one way of maintaining, constantly in the spotlight, the 
situation in Burma. And there's very strong support among the 
democratic opposition in Burma for our sanctions. I'm the first 
to admit that they, by themselves, have not solved the problem, 
nor, frankly, has any other approach, which is why I said we're 
so open to new ideas.
    Senator Kerry. Well, do you believe that, if China joined 
in sanctions together with Thailand and with India, that there 
would be a legitimate squeeze on Burma----
    Mr. Marciel. Yes.
    Senator Kerry [continuing]. On the junta?
    Mr. Marciel. Yes; I think there would be.
    Senator Kerry. So, why isn't that the strategy? Why aren't 
we declaring that that must happen in exchange for any number 
of things with India and China?
    Mr. Marciel. Well, as I said, Senator, the sanctions, I 
said--our own sanctions--are a part of our strategy, but 
they're not the whole strategy.
    Senator Kerry. Well, what is the whole strategy?
    Mr. Marciel. The----
    Senator Kerry. That's what----
    Mr. Marciel. I'll----
    Senator Kerry [continuing]. I'm asking you.
    Mr. Marciel. I'm--I'll try to tell you, Senator.
    Senator Kerry. To get something done--not just to have the 
appearance of doing things, to actually get something done.
    Mr. Marciel. Senator, the administration's absolutely 
committed to getting something done.
    Senator Kerry. What's the evidence of that? Is there--
what's the, sort of, agreement here with respect to how we're 
going to get humanitarian assistance back in? Is there one?
    Mr. Marciel. Well, humanitarian assistance, if I could--
that's a slightly separate issue, I think, than getting----
    Senator Kerry. Well, then leave that, for now.
    Mr. Marciel. OK.
    Senator Kerry. Just stay with the sanctions.
    Mr. Marciel. The focus is: One, we maintain, strengthen our 
own sanctions; two, we get as much international pressure on 
the regime as possible. And that involves heavy, heavy 
diplomacy, and it's slow. We can't go to China today, or India, 
or anyone else in the region, and say, ``Impose sanctions,'' 
and expect it to happen tomorrow. This is really hard work, as 
you----
    Senator Kerry. What are we----
    Mr. Marciel [continuing]. Know, Senator.
    Senator Kerry [continuing]. Going to put before the 
Security Council next week?
    Mr. Marciel. I don't know. We're going to, first, wait and 
see what Mr. Gambari reports. We really just have to see what 
he says.
    But I really want to stress, Senator, there is genuine 
commitment in the administration to doing everything we can to 
bring about change. And there's a lot of people at very high 
levels--and certainly the President and the First Lady--very 
active on this. And the goal is to bring about change. 
Sanctions, a lot of heavy diplomatic work, which is--which is 
really slow. And we're all incredibly frustrated that it is so 
slow and so hard, but that's----
    Senator Kerry. Well----
    Mr. Marciel [continuing]. The way ahead.
    Senator Kerry [continuing]. With all due respect, I have 
been chair of this subcommittee until this year. Senator Boxer 
has taken that over. And I've traveled to the region many 
times. And we just haven't focused on this. I'd tell you 
bluntly that there's been this sort of occasional statement, 
and then everybody goes about their business. Not dissimilar, 
may I add, to six-party talks that engaged in no talks for 
about 4\1/2\ years with North Korea, until you finally did 
bilateral, and now we're making some progress with the very 
thing this committee proposed 5 years ago.
    Mr. Marciel. Right. Senator, I can speak for the last 2 
years. I wasn't working on Burma before that. For the last 2 
years, there's been quite intensive work, particularly on the 
diplomatic front, on Burma that has resulted in increased 
international pressure on the regime. Part of the trouble, of 
course, is the regime doesn't--isn't easily influenced.
    Senator Kerry. Because they don't have to be, because they 
have a sweetheart relationship, militarily and economically, 
with their friend to the north. It's very simple.
    Mr. Marciel. And----
    Senator Kerry. It's not a hard equation.
    Mr. Marciel. Well, and it's not just----
    Senator Kerry. And they've done well with India, and 
they've done well with----
    Mr. Marciel. Right.
    Senator Kerry [continuing]. Thailand.
    Mr. Marciel. I agree.
    Senator Kerry. So, they don't have to. So, all of the rest 
of this is folderol, frankly.
    Mr. Marciel. Well, Senator, as I said, we're not saying 
that we've had great success here. We're open to ideas, if 
people have ideas. We have also let the regime know--we've 
offered positive inducements by letting the regime know that, 
if they were to move in the right direction, we would respond 
positively. It's not that--this is not--I was in Vietnam in the 
early 1990s, then you were working on it, Senator--this is not 
Vietnam, this is not a regime that's shown----
    Senator Kerry. I absolutely----
    Mr. Marciel [continuing]. An interest----
    Senator Kerry [continuing]. Understand that, believe me. I 
know that.
    Mr. Marciel [continuing]. In reaching out. So, it's very 
hard to leverage them.
    Senator Kerry. There are zero redeeming qualities about 
this regime.
    Mr. Marciel. I agree with that.
    Senator Boxer. Senator Kerry, thank you.
    Senator Webb.
    Senator Webb. Thank you, Madam Chair.
    The first thing I would say is that we obviously are 
dealing with two problems here at once, which makes it kind of 
difficult to have the sort of dialog that you're having with 
the subcommittee. The first is the immediate problem, and it's 
urgent, and I have no doubt in my mind that there are people 
being rounded up right now, and that we need to do whatever we 
can to resolve the short-term problem. And then we have the 
long-term problem. And I would respectfully disagree with the 
way that this sanctions program has moved forward. I would 
posit a theory that countries around the world that are the 
most isolated are also the most repressive; North Korea being a 
classic example, and Burma being a classic example of that.
    And there is something of a parallel with Vietnam. The 
governmental system is not a parallel, but the techniques that 
we were using, you can, I think, develop an analytical parallel 
with. From 1975 until probably 1990, this was an enormously 
repressive regime. They put a million people in reeducation 
camps because they had been aligned with us, more than 56,000 
of them died in these camps, 240,000 of them stayed longer than 
4 years, some of them stayed as long as 18 years, locked up. 
They could pull anybody off the street. And it was when I first 
started going back to Vietnam, and it was interesting, anybody 
could come up to you and talk to you, but, if you left, their 
family was visited that night. So, there were those kinds of 
parallels. And we had economic sanctions in place. And I 
actually supported those sanctions, and we lifted the 
sanctions, and the positive result of lifting the sanctions, 
not by themselves, but coupled, as you know, if you were there 
in the early 1990s, with the roadmap--the diplomatic roadmap 
that was put in place, with benchmarks, with--the economic 
liberalization that went along with that opened up the country 
in a way that they could not escape a certain amount of outside 
influence. There were reasons that they had to do that, with 
the demise of the Soviet Union and all those rest of--all those 
sorts of things.
    But the model, it seems to me, has some applicability here. 
I mean, when you were talking, in your testimony, about the 
fact that there are parallel economic systems in Burma, it 
would seem logical to me that the impact of the sanctions that 
we have in place really don't affect the government. Would that 
be true? The regime?
    Mr. Marciel. I think some of the--I think it affects the 
overall economy, some of the sanctions--for example, the 
investment ban or the import ban would affect the economy, as a 
whole, possibly----
    Senator Webb. But it wouldn't be affecting the ruling----
    Mr. Marciel. Right.
    Senator Webb [continuing]. Regime, as opposed to the 
people.
    Mr. Marciel. Well, we also have sanctions, and those--this 
is what we did last week, particularly, was, we focused 
specifically on the regime, to try to squeeze----
    Senator Webb. Right.
    Mr. Marciel [continuing]. Them.
    Senator Webb. Well, and that's a--that's a place that----
    Mr. Marciel. Right.
    Senator Webb [continuing]. I can see some applicability. 
But, on the other side, with the average person, I can only go 
back to the individual that I was talking about in my opening 
statement. This is an American businessman who had opened up an 
outdoor furniture business in Burma, hiring all Burmese people, 
creating a business pattern that they could understand, working 
quietly with government officials. And he's not there any more. 
You know, he's a voice that could explain our culture, that 
could actually train people and help create a bottom-up 
pressure against a repressive regime, is gone, multiplied by 
however many times that occurs. And you can only do that sort 
of thing along with a diplomatic roadmap, along with pressures, 
but it seems to me that, with the reality that China's not 
going to go with us on sanctions, India's not going to go with 
us on sanctions--I met with the Thai Foreign Minister this 
morning. He had a very respectful voice, warning against the 
inapplicability, as opposed to other ways of doing it. What do 
we do?
    Mr. Marciel. It's a very good question, Senator. At the 
risk of--in a discussion on Vietnam normalization with two 
veterans, in more than one way--the Vietnamese, because of the 
collapse of the Soviet Union, made a strategic decision, as you 
know, to open up and join the world. And that allowed--that 
gave us some leverage, through the roadmap. We would love to 
see that sort of approach with Burma. They just haven't shown 
any indication of willingness to--or interest in reaching out. 
In fact, I agree with you, they're so isolated, but they're 
isolating themselves. Their decision to move the capital is a 
classic----
    Senator Webb. No question about that. And I----
    Mr. Marciel. So----
    Senator Webb [continuing]. I would agree with you, I don't 
think we disagree with the ultimate----
    Mr. Marciel. Right.
    Senator Webb [continuing]. Objectives here. But the--when 
you look at the pattern in this administration, with all due 
respect, it has been not to talk to people----
    Mr. Marciel. Right.
    Senator Webb [continuing]. Whether it's Iran or Syria or--
pick a country.
    Mr. Marciel. I understand.
    Senator Webb. And with--we're the big guy on the block. You 
know, we bring a lot of things to the table that we could use, 
in terms of moving these things forward.
    Mr. Marciel. Senator, I understand. We have talked to the 
regime. We have indicated a willingness to move in a positive 
way, if they will move in a positive way. It's not detailed 
like the roadmap, it's a much more general approach. So, if 
they were showing some interest and a willingness to make some 
positive--take some positive steps, I think it's clearly----
    Senator Webb. Well, they definitely aren't--and this is not 
to contradict what you're saying, in just--in terms of 
searching for a formula that will make it better for the people 
of Burma. I mean, they're not--I'm getting gaveled down at the 
bell, there--but the other way is not working, either. That's 
the point.
    Thank you.
    Senator Boxer. The only reason I'm doing this is, there's a 
vote coming, and I want to make sure we get our panel in.
    So, Senator Cardin, the floor is yours.
    Senator Cardin. Thank you very much, Madam Chairman.
    Mr. Secretary, thank you for your testimony.
    I've listened to your responses, and I think you're hearing 
from all of us that we believe there's got to be greater 
urgency for effective policy to stop the humanitarian disaster 
that's taking place today in Burma, that we just can't sit back 
and use the same terms we've been using now for many, many 
years.
    I don't really think it should have surprised us that there 
was a blowup in Burma. This repressive regime's been there, the 
signs of these types of problems have been there for a long 
time, it's been a very closed society, it's been very difficult 
for us to get anyone into the country. And now we're faced with 
a crisis, and our options become more challenging.
    So, I just really want to express some frustration that we 
did not pay attention to more effective policies prior to this 
most recent blowup.
    We all agree that statements, alone, will not be effective. 
But then I listen to your strategy about getting our--other 
countries to use the same terms we're using--release of 
prisoners and end of violence, et cetera--which certainly are 
goals, but it seems like what you're saying is that, if they 
make those demands, that perhaps we're making progress, when, 
in reality, without some effective action, we're not making 
progress. We don't know what's happening in Burma today, we 
don't know how many people were killed today. And we just can't 
sit by.
    We all agree that sanctions is part of our strategy. But 
our sanctions haven't been effective. So, you stated that the 
administration's policy is to strengthen the sanctions. Would 
that be to close the loopholes that exist today; if necessary, 
through legislation?
    Mr. Marciel. Senator, I would say that sanctions is part of 
our policy. We're looking at various options. We haven't made a 
decision, beyond last week's tightening of sanctions, but--
we're looking at other options, in terms of sanctions or 
tightening things up, but we haven't made decisions yet. But I 
would say we are looking at them with urgency.
    On the point about getting other countries, it--we're not 
just asking them to make statements. I take your point on that. 
We're asking them to use whatever influence they have, and 
different countries have different forms of influence. It's 
very hard to get countries, particularly in the region, to 
agree to impose sanctions. What we're trying to do is get them 
to put more and more pressure on the regime, and get, as much 
as possible, the international community to speak to one voice 
to maximize the pressure. It's very hard. I mean, there is no 
easy solution, but that's at least what we need to be doing 
now. If we could get everybody--China, India, ASEAN--all to 
impose sanctions tomorrow, it probably would have a profound 
effect, but that's not an easy thing to do.
    Senator Cardin. I don't deny it's difficult. I'm not trying 
to make this a simple solution, because there is not a simple 
solution. But I know that, unless we are--unless the countries 
we're talking to sense the urgency that's in this committee 
room, the likelihood of effective action is--it's not going to 
be there. So, I guess we would feel more comfortable if we 
sensed that urgency in the administration's conversations with 
the countries that can help us effectively change policy in 
Burma.
    As far as making the sanctions work, I think that's an 
important point. And I don't understand why we would be 
reluctant to deal with the oil issue--the gas issue that was 
brought up. I would certainly hope that that would be on the 
table. That's a significant amount of resources going to this 
government. And if we are to expect other countries to perhaps 
join us in isolating Burma's economy through sanctions, they're 
going to be looking at the actions that we have taken first. 
We're the leader.
    I see you shaking your head. I'm only saying that, because 
I want to make sure that's in the record, that I got a positive 
nod. Because I do think we have to be the leader. And I think 
people are going to be looking--other countries are going to be 
looking at whether we are just being convenient in our 
sanctions or we are trying to be effective in our sanctions.
    Mr. Marciel. Yes, Senator, I would say two things. One, we 
are looking at all of the ideas on sanctions. I can't say much 
more than that, because we haven't made an administration 
decision yet on some of these things.
    In terms of urgency, I must not be expressing myself very 
well. There's incredible urgency in the administration. You 
know, it's very, very active, constantly meeting, calling, 
pressing, cajoling, everything we can do. I don't know how to 
express it better than that, but it--this is not, sort of, 
business as usual, where, ``Let's have a meeting in 2 weeks on 
Burma.'' It's constant, every day.
    Senator Cardin. I thank you for that reply. That certainly 
is--I'm pleased to hear you say that. I'd just repeat, today 
people are dying in Burma. We don't know the extent of it, and 
we don't have good information as to what's happening on a day-
to-day basis. But we know that there's a--there is a 
humanitarian crisis. And the United States must exercise 
international leadership to do everything we can to effectively 
bring an end to that humanitarian disaster
    Thank you, Madam Chair.
    Senator Boxer. Thank you very much, Senator. I think you 
spoke for all of us, there.
    I want to thank you very much, Mr. Marciel. I think what 
you're hearing from all of us is, we really want to be helpful 
here, we want to give you the backbone to go forward and do as 
much as you can. And, when you say ``tighten sanctions,'' you 
know, we've got to look at the obvious. It's hard to ask 
somebody else to do it, when we have a loophole the size of a, 
you know, Mack truck. So, I think we're ready to help you, and 
we urge you to take that message back, if you would, to----
    Mr. Marciel. Thank you.
    Senator Boxer [continuing]. Secretary Rice and everybody 
over at State. Thank you----
    Mr. Marciel. I will.
    Senator Boxer [continuing]. Very much.
    Mr. Marciel. Thank you.
    Senator Boxer. And we will invite up panel three: Michael 
Green, senior adviser, Center for Strategic and International 
Studies, in Washington; Mr. Aung Din, policy director, 
cofounder, U.S. Campaign for Burma; and Mr. Tom Malinowski, 
Washington advocacy director, Human Rights Watch.
    We're going to give you each 5 minutes, and we're going to 
really hope that we're not interrupted by a vote. If we are, we 
still have enough time, I say to my ranking member, to hear 
from this panel. So, let's just plunge right ahead.
    Mr. Green, we welcome you, and go forward for 5 minutes. 
We'll put your statement in the record.

 STATEMENT OF DR. MICHAEL J. GREEN, SENIOR ADVISER, CENTER FOR 
      STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Dr. Green. Thank you, Madam Chair.
    I, as Senator Murkowski said, was invited to speak to this 
committee last year, and we discussed, in those hearings, how 
to organize, internationally, to apply more pressure and build 
more consensus to effect change in Burma. And that's what I'd 
like to talk about today.
    I would first add, though, that the center of action, the 
moves that count most, are always on the ground, and our 
colleague Aung Din will speak to that, and I think that is 
going to be where this will ultimately be decided. But we could 
organize ourselves better.
    After 1988, the international community split. The United 
States, most Western democracies, imposed sanctions; most Asian 
nations argued for patient engagement. And we've had an 
interesting discussion about the inadequacy of sanctions, in 
and of themselves, if they're unilateral, to change the junta's 
behavior. But what is interesting is how leaders in Bangkok, 
Tokyo, and even in Beijing are acknowledging that their patient 
engagement has not worked any better. And I think we're at a 
crossroads, where the level of international indignation has 
never been higher. There are definitely differences among the 
neighbors, and they've been explained in the previous session. 
On the other hand, we've never had the focus we have today, 
internationally.
    Senator Feinstein noted some of the subtle, but important, 
changes in China's rhetoric. I--you know, as an Asia expert, 
you see these small changes, and see icebergs moving, but it's 
important that China's beginning to use rhetoric like 
``reconciliation,'' even if they caveat it by, unfortunately, 
``calling on all sides.'' So, it's far from what we need, but 
there is movement. India, as well, Japan, and, most notably, 
the ASEAN statement, led by Singapore, but representing all of 
the members, other than Burma, calling what's happening 
``repulsive.''
    This is not happening only because the demonstrations and 
the brutal suppression of those demonstrations by the regime 
are there for everyone to see. I think it's also happening 
because this is a different Asia from 1988. ASEAN is now 
working on a new charter that will emphasize human rights, the 
rule of law, democracy, and establish some form of human rights 
commission. This is not the ASEAN we were dealing with 10 or 20 
years ago. We ought to be pushing them to live up to the 
standards that they, themselves, are starting to articulate.
    Japan, 10 years ago, 20 years ago, argued that Asian ideas 
of democracy or capitalism are different. You heard that 
frequently. Today, the Japanese Foreign Minister talks about an 
arc of prosperity and freedom and Asia, and identifying, in 
Tokyo, these democratic ideals. And India's Prime Minister 
Manmohan Singh speaks of the idea of India being democracy. 
And, even in China, this is not the China of 1988. China 
worries about stability, and there's an interesting debate 
among Chinese intellectuals about whether they can sustain in 
the--a role in the world based on noninterference in internal 
affairs. So, we ought to be pushing all these countries to move 
further in that direction. We'll, I think, not only be able to 
make progress on this specific crisis, but begin establishing a 
broader norm in the region that will contribute to stability 
over the longer term.
    What concerns me is what many of the members were 
discussing, and that is that we will fall back into 
complacency, settle for a hollow process, as we often have in 
the past. And I think that we need to galvanize the 
international community, as several of the members of the 
committee have said. The United States has to lead on this. The 
solution is going to lie largely within Asia, but the 
leadership is going to have to come from Washington.
    I would argue, first, that, while sanctions, in and of 
themselves, have not changed the behavior of the regime, 
they're absolutely indispensable. The President announced new 
targeted financial sanctions, which I think are critical to our 
overall strategy--first, because the democracy movement wants 
them, they know we're doing them. This is giving them the moral 
support and encouragement they need to win this battle in the 
streets. Second, sanctions--these targeted financial sanctions 
are much more sophisticated than they used to be. They sting, 
and they complicate those who try to do business with the 
elite, and will get international attention.
    Now, I think we also have to push harder on the Security 
Council for a resolution. The administration has been hesitant, 
because it, to date, did not want to provoke a Chinese or 
Russian veto that would give encouragement to the junta. I 
think we're beyond that. I think we need to force China and 
Russia to put their cards on the table. I would push for an 
arms embargo, as well.
    Ultimately, China and India will not agree to American-
style sanctions, but we know, from North Korea, that they'll 
turn the oil off for 3 days, they'll cut off critical 
shipments. They can express their displeasures in ways that are 
hard to miss.
    And, finally, I think we need to organize the diplomacy in 
a more deliberate and almost formal way. We need senior 
officials, perhaps even a special envoy, not to go talk to the 
regime, but to go talk to India, China, on behalf of the 
President and the Congress, begin pulling this together.
    We need to agree to a common set of benchmarks to move this 
loose change in rhetoric toward something of a concrete set of 
steps, beginning with the release of Aung San Suu Kyi, in a 
transparent and inclusive process. And I think if we do this 
work, it will pay off in the longer term, not only in Burma, as 
I said, but in starting to move the norms in Asia in directions 
that will support the kind of freedom that that the people in 
Burma are now struggling to achieve.
    Thank you.
    Senator Boxer. Thank you very much, sir.
    And we're privileged to welcome Mr. Aung Din, policy and 
cofounder of U.S. Campaign for Burma, Washington, DC.
    And we're so grateful to you for making this possible on 
your schedule, sir.

    STATEMENT OF AUNG DIN, POLICY DIRECTOR, COFOUNDER, U.S. 
               CAMPAIGN FOR BURMA, WASHINGTON, DC

    Mr. Din. Thank you, Madam Chairman, Senator Murkowski.
    I wanted to thank you for holding this important hearing 
today to review the situation in Burma.
    As we speak here, horrible events, massive killings and 
massive arrests of peaceful demonstrators by the military 
junta, already have begun and continue in my country. More than 
200 peaceful protesters, including Buddhist monks, students as 
young as 12 years old, and civilians, have been brutally 
killed, and over 2,000 were arrested by the soldiers and riot 
police in a matter of days. The people of Burma are now in a 
great shock and traumatized from these brutal experiences.
    I have submitted my written testimony. I would like to ask 
you to put it into the record. And I would like to jump to the 
end of my testimony, to save the time.
    So far, the military junta has claimed that they have 
killed nine protesters. However, the actual number of deaths is 
much more than they have claimed. We believe that more than 200 
protesters, including monks and students, were killed by the 
Burmese military junta in a matter of days. One of the 
fatalities is a Japanese reporter, Mr. Kenji Nagai, and sources 
from Rangoon General Hospital said that they received about 100 
dead bodies on September 26 alone, and they were also 
instructed by the junta's Minister of Health, Dr. Kyaw Myint, 
not to send ambulances to incidents without permission from the 
military junta. According to some sources, the junta is using a 
crematorium at Yay Way Cemetery on the outskirts of Rangoon to 
destroy the dead bodies. Soldiers also threw dead bodies into 
the rivers.
    We also believe that more than 2,000 protesters, most of 
them monks, nuns, have been arrested and put in windowless 
warehouses inside the compounds of the Government Technological 
Institute in Insein Township near the notorious Insein Prison; 
several hundred more are being detained at various detention 
centers in many other cities. Number of arrests will be 
increased dramatically, as soldiers are now searching house by 
house, apartment by apartment, with photos in hands, to arrest 
those they suspect.
    According to the National League for Democracy Party, over 
150 members of the NLD, including three leaders from the NLD 
headquarters, and several dozen members of Parliament-elect 
were arrested. Monks in detention have been forcibly disrobed 
by the soldiers, but they still refuse to accept food provided 
by their jailers. At least four monks died in detention due to 
severe injuries they have sustained from being attacked by 
soldiers.
    The military junta claimed that the situation in Burma has 
returned to normal. It is true that over 20,000 soldiers roam 
the streets of Rangoon. Their brutal and merciless actions and 
massive arrests have made it too difficult for people to stage 
protests in the streets. But this is not the end of the story. 
People of Burma have stopped protests, for time being, while 
they transform their protests into another style. They will 
treat their wounded colleagues, they will search for missing 
members of their families, they will regroup, and they will 
come back again with stronger force. I believe the military 
junta will not be able to kill the spirit of the Saffron 
Revolution. Democracy will prevail in Burma.
    I was a student leader in 1988, working together with other 
student leaders. We organized a nationwide popular uprising in 
Burma in August 1988, calling on the military junta to bring 
about political reform. The 1988 popular democracy uprising was 
ended with bloodshed after the junta killed thousands of 
peaceful demonstrators in the streets in cold blood. We found, 
surprisingly, that the international community did not pay 
attention to Burma at that time, and the international 
community failed to stop the violence in Burma. Therefore, the 
military junta was able to get away with these crimes against 
humanity.
    We do not want the international community to fail again 
this time. The international community must hold the military 
junta of Burma accountable for these crimes against humanity, 
and it must take effective and collective action. The 
international community should not let this murderous regime 
get away with their serial killings.
    Let me go over to the conclusion now.
    What we are asking is collective and effective action from 
the U.N. Council, a binding resolution for Burma to stop 
killing and arresting protesters, to treat all detainees 
humanely and provide them proper medical care, release all 
political detainees, including Aung San Suu Kyi, and engage in 
a meaningful political dialogue with democracy forces and 
ethnic minority leaders for the sake of national reconciliation 
and a transition to democracy and civilian rule.
    We also want the U.N. Security Council to impose targeted 
sanctions against the military junta, which include an arms 
embargo, a travel ban of the top generals and their family 
members, and a ban on investment and threaten the junta with 
stronger sanctions if it fails to fulfill the instructions of 
the Security Council. We all know that China and Russia might 
still exercise their veto powers to kill such a resolution. 
However, we, the people of Burma, really want the United 
States, in consultation with the United Kingdom and France and 
other like-minded members to table the resolution at the 
Security Council as soon as possible. As the people of Burma 
courageously challenge the brutal junta, we want the United 
States and democratic countries to challenge China and Russia 
at the Security Council. We might fail, but we will surely win.
    Thank you.
    [The prepared statement of Mr. Din follows:]

  Prepared Statement of Aung Din, Policy Director, U.S. Campaign for 
                         Burma, Washington, DC

                              INTRODUCTION

    Madam Chair, Senator Murkowski, I would like to thank you for 
holding a hearing today to review the situation in Burma. As we speak 
here today, horrible events, massive killings, and massive arrests of 
peaceful demonstrators by the military junta already have begun and 
continued in my country. More than 200 peaceful protesters, including 
Buddhist monks, students as young as 12 years old, and civilians, have 
been brutally killed and over 2,000 were arrested, by soldiers and not 
police in a matter of days. The people of Burma are now in great shock 
and traumatized from these brutal experiences.

                        BRIEF SITUATION IN BURMA

    Let me present the current situation in Burma briefly. On August 
15, the military junta suddenly increased gas prices, doubling the 
price of fuel and quintupling the price of compressed natural gas. This 
made the lives of ordinary citizens more difficult and more insecure. 
They could not go to school, offices, or factories as they could not 
afford to pay for the new higher travel costs. They have not been able 
to purchase food and medicine for their families. Their already-
difficult lives became more desperate.
    The leaders of the 88-Generation Students, comprised of former 
student leaders who had spent over a decade in prison for their leading 
role in the 1988 popular democracy uprising, responsibly and quickly 
called on the military junta to reduce the prices and started to 
organize the people to walk, instead of taking buses, to make their 
demand more serious. A peaceful march, with about 500 people led by the 
student leaders, took place in Rangoon on August 19, 2007. The military 
junta responded by arresting key members of the 88-Generation Students, 
including Min Ko Naing, the second most prominent leader of Burma's 
democracy movement, in the early morning of August 21, 2007, and 
threatened civil society not to hold any protest.
    However, the arrests of student leaders did not stop the protests 
from continuing in the following days. Peaceful marches in the streets 
in various cities continued and the military junta used its militia, 
the Union Solidarity and Development Association (USDA), to crackdown 
on protesters. Peaceful protesters were brutally beaten and attacked by 
members of USDA and arrested. In the 2 weeks between August 21 and 
early September, the military junta arrested about 200 peaceful 
protesters.
    The situation's tipping point came on September 5 at Pakkoku 
Township in middle Burma. Hundreds of monks came to streets, reciting 
Metta Sutra, which is the Buddhist teaching of loving and kindness. 
They felt that there is a lack of love and kindness in the country, and 
that's why they tried to send their enormous Metta to all the people of 
Burma, and believe that a peaceful solution can be reached under their 
Metta. However, they were wrong. They were confronted by angry soldiers 
and USDA members, who brutally attacked and fired several warning shots 
above them. Five monks were arrested, beaten, and insulted by the 
soldiers in police lockup. This is a huge insult in Buddhism and toward 
the monks, who are highly respected by the majority of the population 
in Burma.
    Buddhist monks all over the country joined together, formed an 
organization called the ``All Burma Monks' Alliance,'' and called on 
the military junta to fulfill four demands, which are (1) to apologize 
to the monks whom they have attacked and insulted, (2) to reduce the 
prices of fuel and basic commodities, (3) to release all detainees 
including Aung San Suu Kyi and (4) to engage in a meaningful political 
dialogue with the election winning party National League for Democracy 
and ethnic representatives. They asked the junta to fulfill these 
demands no later than September 17, 2007. On September 18, the 19th 
anniversary of the military junta in power, Buddhist monks began a 
nationwide excommunicative boycott against the junta, USDA members and 
their families. Buddhist monks have refused to accept donations and 
offerings from them, and would not attend religious and social 
functions conducted by them, until and unless the junta fulfills their 
demands.
    At that point, thousands of monks gathered at important Pagodas in 
various cities, and vowed to take excommunicative boycott against the 
junta. The junta tried to blocked access to the Pagodas and used its 
civilian militias to attack the monks. Then monks marched in the 
cities, reciting Metta Sutra, peacefully and with discipline. In 
Rangoon, monks gathered at the country's most famous Buddhist shrine, 
the Shwe Dagon Pagoda, prayed in front of the Pagoda, and then marched 
toward Sule Pagoda in downtown Rangoon. First, the monks asked people 
not to join in the protests, and therefore, students and people only 
marched single file on both sides of the columns of monks, chaining 
their hands together to protect the monks. After a week in which their 
demands went unanswered monks encouraged all the people to join the 
protest. Hundreds of thousands of students and people joined tens of 
thousands of monks in peaceful marches in every major city in Burma, 
Rangoon, Mandalay, Mon Ywar, Bago, Sagaing, Pakkoku, Sittwe, Myitkyina, 
Mogok, Kyauk Padaung, and many other cities throughout Burma.
    The military junta increased security forces in Rangoon and many 
other cities and imposed a curfew order on the night of September 25, 
and also banned the gathering, and assembly of more than five persons. 
Rangoon and Mandalay were also put under the authority of Divisional 
Commanders. This was effectively imposing martial law.
    On September 26, 2007, in defiance against the threat, hundreds of 
thousands of peaceful protesters, under the leadership of monks, came 
into the streets. Several confrontations between security forces and 
protesters took place at many locations, nearby Shwe Dagon Pagoda, in 
Bahan Township, in Tamwe Township, at Shwe Gone Daing, nearby Sule 
Pagoda and in front of the Rangoon City Hall. Security forces threw 
tear gas canisters and smoke bombs to disperse the crowd and fired 
several rounds, in the air and at the crowd. According to various eye-
witness accounts and the leader of the All Burma Monks' Alliance, five 
monks and two civilians were killed on September 26. Some of them were 
beaten to death and the rest were killed by gunshots.
    Major crackdown against the monks began at midnight of September 26 
and early morning of September 27. Security forces raided Buddhist 
monasteries in Rangoon, and Myitkyina, Moe Nyin and Bhamo Townships in 
Kachin State.
    In early morning of September 27, the SPDC troops, as instructed by 
Divisional Commander Major General Ohn Myint, surrounded monasteries in 
Myitkyina, Bhamo and Moe Nyin Townships in Kachin State. Soldiers broke 
down the doors and entered the compounds as they were occupying enemy 
camps. Monks were brutally beaten and over 300 monks were taken by the 
soldiers. When residents came to see the monasteries, they saw blood 
and damages everywhere. People believed that at least more than seven 
monks were beaten to death during the raids.
    In Rangoon, several monasteries in South Okkalapa, North Okkalapa, 
Tamwe, Yankin, Thingangyun, Bahan, and Insein were raided by the troops 
at midnight and early morning. Let me share with you an example of how 
they had raided the monasteries.
    Ngwe Kyar Yan Monastery is a famous Buddhist teaching center, 
located in South Okkalapa Township in Rangoon, with about 350 monks. 
These monks took part in the peaceful protests; as they did in the 1988 
popular uprising. Therefore, this monastery was a major target of the 
SPDC. Early in the morning of September 27, several hundred soldiers 
came with over 20 trucks and attacked the monastery. They brutally 
attacked the monks, arrested over 200 monks and left before dawn. When 
people from the neighborhood came to see the monastery in the morning, 
when curfew order was over, they amazingly saw blood spattering all 
over the monastery and about 50 monks left behind traumatized and badly 
beaten. They were told by the remaining monks that several monks were 
beaten to death by the soldiers. While the people were treating the 
injured monks, the military troops came back again and dragged away the 
rest of the monks. The people had to disperse from the monastery as the 
soldiers threatened to shoot, but they regrouped later with a large 
number of people, blocked the way of the military troops and demanded 
the release of the monks. The situation was tense, soldiers fired at 
the crowd and people threw stones at them. After a 2-hour standoff, 
additional soldiers came in and they fired at the crowd. At least 8 
people were killed and their bodies were taken away by the troops.
    More than 50 monasteries in Rangoon and many other cities were 
raided by the military troops in a similar fashion as I mentioned above 
and the monasteries are all empty now. More than 1,000 monks were 
brought into detention centers. Other monks are also being kept in 
detention in their monastery campuses, as their monasteries are 
surrounded by the military troops and their entrances are blocked by 
barricades.
    On September 27, 2007, Rangoon became a battle field, between armed 
and blood-thirsty soldiers and unarmed protesters. The news of brutal 
attack and raids on monasteries spread all over the city and many 
people came out into street filled with enormous anger. They were 
confronted by security forces in various places. The troops fired at 
crowds with their automatic weapons at Pansodan Street, at Shwe Gone 
Daing, in front of Sule Pagoda, nearby Shwe Dagon Pagoda, in Sanchaung 
Township, Ahlone Township, nearby Kyaikkasan Pagoda, in Thingangyun 
Township, China Town, Pazundaung Township, and at the junction of 38th 
Street and Mahabandoola Street. Various sources said that at least 
nearly 100 protesters were killed in these incidents and several 
hundreds were arrested. At 2:30 p.m., the military troops tried to 
disperse protesters, who were staging a protest in front of State High 
School No. (3), Tamwe Township. As their examination had just finished, 
students, teachers, and their parents who came out from the school 
became the victims of a brutal killing rampage. Military trucks, fully 
loaded with soldiers, ran into the crowd and many were killed by being 
run over by the trucks. Soldiers also shot at the crowd and according 
to several eye witness accounts, between 50 and 100, including 
students, teachers, and parents, were killed. Soldiers left the scene 
and then came back again a half an hour later to pick up the bodies.
    Now, over 20,000 soldiers and riot police are deployed in Rangoon 
alone. Military trucks are patrolling the streets, soldiers have set up 
checkpoints at every corner, checking every young man and woman, and 
arresting anyone whom they suspect and anyone who has cell phone with a 
camera. Hundreds of young men and women were arrested over the past few 
days.

                       NUMBER OF DEATH AND ARREST

    So far, the military junta has claimed that they have killed nine 
protesters. However, the actual number of deaths is much more than they 
have claimed. We believe that more than 200 protesters, including monks 
and students were killed by the Burmese military junta in a matter of 
days. One of the fatalities is Japanese reporter Mr. Kenji Nagai. 
Sources from Rangoon General Hospital said that they received about 100 
dead bodies on September 26 alone. They were also instructed by the 
junta's Minister of Health, Dr. Kyaw Myint, not to send ambulances to 
incidents without permission from the military junta. According to some 
sources, the junta is using a crematorium at Yay Way Cemetery, on the 
outskirts of Rangoon, to destroy the dead bodies. Soldiers also threw 
dead bodies into the rivers.
    We also believe that more than 2,000 protesters, most of them 
monks, have been arrested and put in windowless warehouses inside the 
campus of the Government Technological Institute (GTI) in Insein 
Township, near the notorious Insein Prison. Several hundred more are 
being detained at various detention centers in many other cities. 
Number of arrests will be increased dramatically as the soldiers are 
now searching house by house, apartment by apartment, with photos in 
hands to arrest those they suspect. According to the National League 
for Democracy Party, over 150 members of the NLD, including three 
leaders from NLD Headquarters and several dozen Members of Parliament-
elect were arrested. Monks in detention have been forcibly disrobed by 
the soldiers, but they still refuse to accept food provided by their 
jailors. At least four monks died in detention due to the severe 
injuries they have sustained from being attacked by soldiers.

                              WHAT'S NEXT?

    The military junta claimed that the situation in Burma has returned 
to normal. It is true that over 20,000 soldiers roam the streets of 
Rangoon. Their brutal and merciless actions and massive arrests have 
made it too difficult for people to stage protests in the streets. But 
this is not the end of story. People of Burma have stopped protests for 
the time being, while they transform the protest into another style. 
They will treat their wounded colleagues, they will search for missing 
members of their families, they will regroup and they will come back 
again with stronger force. I believe the military junta will not be 
able to kill the spirit of the Saffron Revolution. Democracy will 
prevail in Burma.
    I was a student leader in 1988. Working together with other student 
leaders, we organized a nationwide popular uprising in Burma in August 
1988, calling on the military junta to bring about political reform. 
The 1988 popular democracy uprising was ended with bloodshed, after the 
junta killed thousands of peaceful demonstrators in the streets in cold 
blood. We found surprisingly that the international community did not 
pay attention to Burma at that time and the international community 
failed to stop the violence in Burma. Therefore, the military junta was 
able to get away with crimes against humanity. We do not want the 
international community to fail again this time. The international 
community must hold the military junta of Burma accountable for these 
crimes against humanity and must take effective and collective action. 
The international community should not let this murderous regime get 
away with their serial killings.

  SPEAKING WITH ONE VOICE, TAKING COLLECTIVE AND EFFECTIVE ACTION NOW

    The people of Burma have already proved with their blood that they 
sincerely want democracy and human rights by peaceful means. They are 
not asking the junta to move away from power at once. All they are 
asking is to engage in a meaningful political dialogue with the 
democracy movement and ethnic representatives. They are being killed, 
arrested, and their families are being destroyed by the junta for such 
a moderate demand. Therefore, we hope that the international community 
will step in to stop the killings in Burma and to realize the political 
dialogue between the military junta, the election winning party 
National League for Democracy, and ethnic representatives. We are 
asking now for collective and effective action from the U.N. Security 
Council, a binding resolution, instructing the military junta of Burma 
to stop killing and arresting protesters, to treat all detainees 
humanely and provide them proper medical care, release all political 
detainees including Aung San Suu Kyi, and engage in a meaningful 
political dialogue with democracy forces and ethnic minority leaders 
for the sake of national reconciliation and a transition to democracy 
and civilian rule. We also want the U.N. Security Council to impose 
targeted sanctions against the military junta, which include an arms 
embargo, a travel ban of the top generals and their family members, and 
a ban on investment, and threaten the junta with stronger sanctions if 
it fails to fulfill the instructions of the Security Council.
    We know that there is a possibility of strong rejection from China 
and Russia to adopt such a resolution. China has been comprehensively 
and profoundly interfering in the internal affairs of Burma for two 
decades, providing more than a billion dollars in weapons to the 
generals whom the Burmese people, writ large, have tried every way they 
can to get rid of. Further, the Chinese have repeatedly provided cash 
infusions to the same killers of monks, rapists of young girls, and 
destroyers of 3,000 villages. The blood of this past week is on China's 
hands and they better start to clean it up now. Any claim from the 
Chinese about not interfering in the internal affairs of its neighbor 
should provoke derisive laughter, because that statement is patently 
false.
    We all know that China and Russia might still exercise their veto 
powers to kill such a resolution. However, we, the people of Burma 
really want the United States, in consultation with the United Kingdom, 
France, and other like-minded members, to table the resolution at the 
U.N. Security Council as soon as possible. As the people of Burma 
courageously challenge the brutal junta, we want the U.S. and 
democratic countries to challenge China and Russia at the Security 
Council. We might fail, but, we will surely win.

    Senator Boxer. Thank you so very much.
    Mr. Tom Malinowski, Washington advocacy director of Human 
Rights Watch, here in Washington.
    Welcome, Tom.

  STATEMENT OF TOM MALINOWSKI, WASHINGTON ADVOCACY DIRECTOR, 
               HUMAN RIGHTS WATCH, WASHINGTON, DC

    Mr. Malinowski. Thank you so much, Senator. And thank you 
for pulling us together today and doing this, and for the 
attention you're paying to this issue.
    This country is very close to my heart. Burma was the first 
human rights issue that I ever worked on when I was a very 
young aide to a member of this committee, whom we dearly miss, 
Senator Pat Moynihan, back in 1988, the last time that the 
Burmese people came out like this and were crushed by their 
government.
    People thought we were kind of odd back then working on 
this; it was such an obscure place, nobody really cared about 
it or thought about it. But Senator Moynihan thought it was 
important, and he pressed on. And I remember, one day we were 
sitting in our office in the Russell Building, and someone 
brought us a picture very much like one of these. It was a 
picture of a big, long, huge crowd of young Burmese marching 
through the streets. And they had a banner in front of them 
that read, in big block letters, ``Thank you, Senator Moynihan. 
Thank you, United States Senate.'' And it made us very proud, 
but also profoundly sad, because, you know, we knew then that 
our words and that banner weren't going to protect them from 
the bullets, and we knew then that the world wasn't mobilized 
to help, and that we really probably couldn't do very much, 
because that was a very different time.
    My main message to you right now is that this situation is 
profoundly different. Things have changed. The internal dynamic 
in Burma has profoundly changed just in the last few weeks. 
What the Burmese Government has done--it is brutal, it has 
inspired fear--but going after the monks crosses a line in 
Burmese society that I think they will rue the day they 
crossed.
    But I also think, even more importantly, the world has 
changed in the last 20 years. We've seen that in the reaction 
of ASEAN, an extraordinary condemnation of a country they used 
to defend. We've seen it to some extent in China's reaction. 
China calling for a democratic process in Burma is almost 
surreal, when you think about it. And yet, they have. And we 
see it in other ways that are perhaps harder to understand, the 
increasing interconnectedness of Burma in the international 
financial system, which creates opportunities for us.
    Now, those Burmese generals sitting up there in their 
jungle hideaway, they do not comprehend these changes, and 
that's why they are acting as if nothing has changed. But that 
doesn't mean that nothing has changed, and we need to recognize 
that.
    Now, I think, in terms of what we need to do, Senator Kerry 
is right, we need a concerted diplomatic strategy, and pursue 
it with some urgency, but the question always is: What's going 
to make the generals listen to the diplomacy? Everybody has 
said that the sanctions that have been imposed in the past have 
not produced that effect. That effect will be produced, in my 
view, when the Burmese Government pays a price for its 
intransigence that is higher than the very considerable price 
it would pay in its own mind if it compromises.
    What will get us to that point? Again, the trade and 
investment sanctions, unilateral, have not done it. But I think 
there is a different kind of sanction that could tip the 
balance, that could bring us to that point, and it doesn't 
require the support of China or India, and it's been mentioned 
by Senator Murkowski, by Mike Green, and by others, and it's to 
impose these targeted banking measures that would freeze the 
offshore accounts of top Burmese leaders, their families, the 
business cronies who work in partnership with the regime, and 
block the movement of their money through the global financial 
system.
    And the analogy, as you mentioned, Senator, is to North 
Korea. The United States maintained general trade and 
investment sanctions on North Korea for decades. Hasn't 
produced much results. But when we caused one bank, by 
ourselves, to freeze one account belonging to the leadership, 
they came to the table pretty darn quickly.
    Even in a country as isolated as Burma, there is a simple 
economic reality: You can't get rich without hard currency, you 
can't earn hard currency without doing business with the 
outside world, and you can't do business with the outside world 
without passing money through international banks. If you're 
using dollars, they're going to go through a U.S. bank. If 
you're using euros, they're going through a European bank. For 
example, the Burmese Government would find it very hard to make 
money from those sweetheart deals that Senator Kerry mentioned 
without operating accounts in real banks outside of Burma.
    Now, Burma's leaders, their relatives, their financial 
partners do a lot of their business through a country that no 
one has mentioned today yet, and that's Singapore. They bank in 
Singapore, they shop in Singapore, they get their health care 
in Singapore. Focused, aggressively enforced financial 
sanctions could shut down their ability to do so, not only 
denying them potential wealth in the future, but denying them 
access to the wealth that they currently have and use to 
sustain their government and their very lavish lifestyles. And 
it could be felt very personally. For example, we got news, 
last week, that the family of General Than Shwe, the leader of 
Burma, left the country in the last few days to, you know, get 
away from this unpleasantness. They may be in Dubai, we heard. 
If so, what are they doing to pay for their hotels and their 
airlines? They're using a credit card that's been issued by a 
bank, presumably in Singapore or Thailand. Targeted financial 
sanctions of the sort we're discussing could cause those credit 
cards to be canceled tomorrow, and we have the power to do 
that.
    Now, imagine that scene, for a moment. I think 
``authorization denied'' is a message that will break through 
even to the most isolated general in the jungles of Burma.
    Now, the administration has taken the first step toward 
imposing those kinds of sanctions. I think they deserve a lot 
of credit. I think they have been, actually, quite energetic.
    My understanding is that they're going to expand that list. 
They need to do that urgently. It's also extremely important 
for the Europeans to follow suit because of the role of euros 
in all of this. And, hopefully, governments and banks in the 
region, especially in Singapore and Thailand, will cooperate by 
freezing some of these accounts. If they don't--and this is an 
important point--we should take the additional step that we 
took in the North Korea case, by prohibiting U.S. financial 
institutions from dealing with foreign banks that allow the 
targeted Burmese individuals and entities to maintain accounts. 
That's where legislation might come in.
    And, at that point, I think their calculations change. At 
that point, I think they may listen to the Chinese and the 
United Nations when they come in and say, ``We want to offer 
you a way out by brokering a deal with the opposition.''
    Thank you.
    Senator Boxer. Little did you know, when you were at Human 
Rights Watch, that you'd become a credit specialist and a 
specialist in how to get these guys. As I said to Senator 
Murkowski--I hope she's going to ask you more about how to go 
about doing this. It's very interesting.
    Mr. Malinowski. Thank you.
    Senator Boxer. What I'd like to do is ask this question, 
because, Mr. Din, I think, in his testimony, said something 
that I found very compelling. And I'm going to quote from his 
written statement, ``We are now asking for collective and 
effective action from the U.N. Security Council, a binding 
resolution instructing the military junta of Burma to stop 
killing, stop arresting protesters, treat all detainees 
humanely, provide them proper care, release all political 
detainees, including Aung San Suu Kyi, and engage in a 
meaningful political dialogue with democratic forces and ethnic 
minority leaders for the sake of national reconciliation, a 
transition to democracy and civilian rule. We want the U.N. 
Security Council to impose targeted sanctions against the 
military junta, which includes an arms embargo, a travel ban of 
top generals and their families, a ban on investment, and 
threaten the junta with stronger sanctions if it fails to 
fulfill the instructions of the Security Council.''
    And then he says, ``We know there's a possibility of a 
strong rejection from China and Russia. China has been 
interfering in Burma'' and so on and so on, ``the blood is on 
their hands. But they say''--he says, ``we all know China and 
Russia might still exercise their veto power to kill to such a 
resolution, but we, the people of Burma, want the United 
States, in consultation with the United Kingdom, France, and 
others, to table''--when you say ``table the resolution,'' I 
think that could be misconstrued--I think, ``to bring this 
resolution to the U.N. Security Council as soon as possible. As 
the people of Burma courageously challenge the brutal junta, we 
want the U.S. and democratic countries to challenge China and 
Russia in the Security Council. We might fail, but we will 
win.''
    Now, I am very taken by that, because I think there's a 
mindset, sometimes around here, that you never do anything 
unless you have the votes. I do not subscribe to that. Maybe 
it's because when I first got elected to local government, I 
was on the losing end so much, four to one, four to one, and 
people kept saying, ``Why do you keep offering your amendments? 
You're going to lose them, four to one.'' I said, ``Someday 
I'll win them.'' And it took several years and several 
elections. And, guess what? When I left that board, it was four 
to one my way.
    So, if you just sit back and say, ``We don't want to do it, 
because we could lose,'' I think that's the wrong strategy. So, 
I think, in some ways, we should talk to our U.N. And I think 
I'm going to call him--our Ambassador--he's very charismatic, 
he's terrific--and ask him what he thinks about--even if we 
might lose--I hear what you're saying, sir--am I right, as I 
read this, and I see how you wrote with your exclamation 
points, and so on--that you're giving us a message today----
    Mr. Din. Yeah, that's----
    Senator Boxer [continuing]. Even if you might not win this 
vote, pursue it, and get it to the Council. Is that--am I 
right?
    Mr. Din. That's true, Madam Senator. We want China and 
Russia to put on the record how they defend this regime. They 
might kill such a resolution. We are so sick of the U.N. 
diplomacy. The Burmese regime knows very well how to treat the 
special envoy and how to trick a special envoy that they are 
working. With the red carpet, they will treat him very well, 
and they will give him hollow promises, then the special envoy 
comes back again and tells the world, ``Wait, I saw the light. 
I saw the light in the tunnel.'' Actually, it's not a light, 
it's a fire in the tunnel, but, ``I saw the light. So, please 
wait.'' And when he sees the senior diplomats, and what he does 
is, ``wait sometimes to fulfill their promises.'' Because the 
special envoy was sent by the Secretary General, who is 
mandated by the General Assembly, which does not have any power 
to enforce any resolutions. That is why we try, many times, to 
call for the Security Council to strengthen the mandate of the 
Secretary General. So, if you go there, you can make the regime 
to listen to you.
    Senator Boxer. Well, I think you've got to shame these 
people, for God's sakes.
    Mr. Din. Yeah.
    Senator Boxer. And I think sometimes we make--``Oh, well, 
they'll never--this is hard, they'll never do this, they'll 
never do that.'' Put them to the test. Make them stand up in 
the light of day in the United Nations, say, ``I vote no 
against sanctioning this regime.'' Make them do it. Make them 
explain it. Make them go to sleep at night--make them face it. 
And I so appreciate your courage today.
    Mr. Din. That's exactly what----
    Senator Boxer. And I thank you very much for it.
    Senator Murkowski.
    Mr. Din. Maybe--you have to ask our administration to go 
for it.
    Senator Boxer. I'm going to do it.
    Mr. Din. Please do.
    Senator Boxer. You told me, and I'm going to listen.
    Mr. Din. Thank you.
    Senator Boxer. Senator Murkowski.
    Senator Murkowski. Thank you, Madam Chair.
    This has been a very, very, very important hearing, and I 
appreciate some of the suggestions, the very specifics.
    Mr. Malinowski, I want to go back to your very specific 
suggestions, and the discussion of targeted financial 
sanctions. And you go beyond that and say exactly where we can 
go. You suggest Singapore. I--we had a hearing--again, last 
March--and we had Dr. Sean Turnell, who is with the Burma 
Economic Watch. And I asked him a question about Singapore's 
relationship with Burma, and Singapore's concern over money-
laundering, and asked him specifically about the Singapore-
Burma relationship and whether or not that relationship was 
beginning to be overshadowed by India and China. And his 
response back to me was, ``Singapore used to be the biggest 
player in Burma, but it's withdrawn at a rapid rate. If we look 
at new investments in Burma, we find that Singapore has been 
completely pushed aside in favor of China; to some extent, 
India and South Korea. But''--and he goes on to further state--
``the Singapore withdrawal from the country,'' which is 
directly as a consequence, I think, of the pariah status, and, 
in particular, the problems with money-laundering and so on--he 
goes on to say that Singapore is very anxious to set itself up 
as a--as, kind of, the clean and honest financial hub in the 
region. Do you agree with him? Do you think that we can still 
focus on Singapore, or are China and India the new players on 
the scene? We--you've all indicated that there has been a great 
deal that has changed dramatically in the area over a period of 
years.
    Mr. Malinowski. Yes.
    Senator Murkowski. Can you speak to that?
    Mr. Malinowski. Sure. Well, it's true that China--there's a 
lot of cross-border trade with China. There's a lot of Chinese 
investment. The Indians just did a gas deal. The Indian Oil 
Minister was in Burma doing this deal in the middle of these 
protests, which was just shameful. And I hope you all, in the 
spirit of a good relationship between the United States and 
India, point out how harmful that is to our relationship.
    But, you know, a distinction needs to be made between doing 
business with Burma, in general, and the banking stuff, in 
particular. What I have in mind is something very, very focused 
and very targeted. You know, Burma's actually not that 
complicated, politically. There are a few senior generals. They 
have families, kids, maybe a dozen or so leading financial 
figures in the country who have been allowed to get rich by the 
regime in exchange for investing in their projects, doing 
business with them. And most of these people maintain, as far 
as we know, banking accounts in Singapore, sometimes in 
Thailand, sometimes elsewhere. And they can't do business 
anywhere without passing--you know, you can't do business in 
the international economy with Burmese money. You need to use 
dollars, you need to use euros, you need to use the global 
financial system. And international transactions in the banking 
system--and I'm not an expert on this, but my understanding is 
most of them pass through the United States and Western Europe. 
So, we have a tremendous amount of leverage, in terms of that, 
and ought to use it, in my view.
    Senator Murkowski. You know, I----
    Mr. Malinowski. And that would mean working with Singapore; 
I would hope, in partnership. I think the Treasury Department 
believes that the banks there will actually voluntarily freeze 
some of these accounts if we act. But, if not, I think we can 
compel it.
    Senator Murkowski. And I had asked the gentleman from the 
State Department, Mr. Marciel, about--other than what we have 
in the Patriot Act, what other financial sanctions? Do you 
think that we've got the ability to move forward with these 
targeted financial sanctions, or is a legislative response the 
way that we would have to go? And I know that this is not 
necessarily your area of expertise.
    Mr. Malinowski. I can't give you a definitive answer to 
that. My understanding is that the Patriot Act gives us 
extraordinary authorities if there's a money-laundering nexus.
    Senator Murkowski. Right.
    Mr. Malinowski. And there may well be, in the case of some 
of these individuals in Burma. Certainly, Treasury has thought 
so in the past. I believe that, under IEEPA, the Emergency 
Economic Powers Act, the President can do pretty much whatever 
he pleases, in terms of sanctions, if it's in the national 
interest. But this may also be an area where an already 
somewhat energetic effort within the administration might be 
spurred on if Members of Congress were to introduce and pursue 
legislation. I think they're moving in this direction. They're 
doing due diligence. That doesn't mean that encouragement 
wouldn't be helpful.
    Senator Murkowski. Thank you.
    Mr. Green, did you care to add anything to that? And I know 
that my time is out, but----
    Dr. Green. Sure. In the case of North Korea, the--and I was 
involved in this, in the administration at the time--we used 
section 311 on Banco Delta Asia, which was a bank in Macao that 
was laundering North Korean money from drug and counterfeit and 
other sales.
    So, the comparable move would be to find a bank that's 
taking these Burmese accounts, and applying section 311, which 
denies that bank a corresponding banking relationship with the 
United States. And our banking position is so dominant that 
that is a death sentence.
    So, it's not a perfect application, in the case of 311, 
but, as Tom was saying the Patriot Act authorities are broad 
enough, and Treasury has become sophisticated enough at this, 
that there would ways, I think, to have an escalation of 
pressure, focusing on their bank accounts.
    I think it would require, as it did with Banco Delta Asia, 
a diplomatic effort to encourage the Singapore banking 
authorities and others to work with us. And I think we'd get 
some support from some friendly governments.
    And, frankly, without going into details, it would require 
some sustained intelligence effort, because they move the 
money, and they launder it. So, you need a--in effect, a 
dedicated task force to follow the money in a case like this. 
You have to organize for it, just as you would organize for the 
diplomatic effort.
    Senator Murkowski. Appreciate that.
    You know, when you think about it, Madam Chairman, whether 
it's terrorism or whether it's human rights abuses through a 
military junta, it all comes down to money and whether or not 
they've got the funding. And if you can cut off the funding, 
that seems to be the most effective way to get somebody's 
attention.
    Senator Boxer. And I think what you have done, by opening 
up this issue, is interesting, along with Tom's point, is more 
go after the personal money of the corrupt military people and 
their families. The other way is to keep money out of the 
government itself, which leads me to the question about China, 
which has provided Burma with an estimated $2 to $3 billion in 
military aid, which has afforded the Burmese to build up a 
military of 450,000 troops, making it one of the largest 
standing militaries in the world. Now, how many people live in 
Burma? Anybody know the answer to that?
    Dr. Green. Almost 50 million.
    Senator Boxer. Fifty.
    Mr. Din. About 54 million, I believe.
    Senator Boxer. How many?
    Mr. Din. 54 million population.
    Senator Boxer. 54 million, 450,000 troops.
    Now, while the military is clearly under this strict 
control--now, just to put that into context, 50 million people, 
right? We have 37 million in California--37 million people. And 
they have 450,000 troops in a country with 50 million people. 
Now, while the military is clearly under the strict control of 
the State Peace and Development Council--I always find, if 
people call their military ``State Peace Council,'' watch out 
``--there have been reports over the past week of soldiers 
disobeying orders to take action against the protesters, who 
appear to be, most of them unarmed. Is that just an anecdotal 
story, or how strong is the support within the Burmese military 
for the current junta leader, Shwe? Do you know, any of the 
three of you, if the reports about soldiers refusing to use 
force against civilians, including monks, if those reports are 
accurate?
    Mr. Din. According to my knowledge, there have been some 
places where the soldiers refused to obey the order to shoot at 
protesters. But they were called back and replaced by another 
troops, who really shot at protesters. So, because they refused 
to obey the order, it does not mean that they will join with 
the protesters. They are called back to headquarters, and then 
taken by administrative actions. So far, we don't see any kind 
of military junta or military generals who are willing to 
change for the country who is willing to join with the 
democracy forces.
    Senator Boxer. You don't see anyone within the military?
    Mr. Din. Not right now.
    Senator Boxer. Do either of you want to comment on that?
    Dr. Green. Well, 75 percent of the people in Burma are 
Buddhist, and, of course, that includes the military families 
and family members. So, that's why this, as Tom said, was a 
line--a very dangerous line that the junta crossed. That's not 
to mention all of the Buddhists in India and Thailand, across 
the region. There are protests by monks on both those 
countries, putting pressure on those governments.
    We don't know that much about the internal dynamics of the 
junta. There is, I think, pretty compelling evidence that Than 
Shwe has been developing a very bizarre kind of culta 
personality. The movement of the capital was reportedly based 
on the advice of a soothsayer. You know, in these authoritarian 
governments, the elite expects a certain mandate of heaven, and 
Than Shwe has not demonstrated good government, basically. He's 
not demonstrated leadership. Even for the Chinese, it's an 
embarrassment. And I think it would not be surprising if, among 
the elite, there were real concerns about his actions, and that 
that might be a weak point within the leadership.
    Senator Boxer. How old is he?
    Mr. Din. Seventy-two years.
    Dr. Green. Seventy-two.
    Senator Boxer. Tom, any comments?
    Mr. Malinowski. Well, I think that the best analysis anyone 
can give you is, ``We don't know.'' It's a hard prism----
    Senator Boxer. It's rare that we ever hear that in the 
Senate----
    [Laughter.]
    Senator Boxer [continuing]. People admitting that they 
don't know. It's----
    Mr. Malinowski. Well, we don't know. But, you know, it's--
--
    Senator Boxer [continuing]. Very refreshing.
    Mr. Malinowski. Two months ago, I would have said, ``We 
know nothing good is going to happen in Burma.''
    Senator Boxer. Yes.
    Mr. Malinowski. Right now, we don't know. And, in a way, 
that's progress.
    Senator Boxer. I have a last question, and then, Senator, 
if you have some more, please, you can take it from there.
    In terms of the United Nations, which is obviously where 
all eyes are--What are they going to say? What are they going 
to do? How aggressive are they going to be?--do you think 
Secretary General Ban Ki-moon has done enough, so far? Do you 
think that it would be worthwhile having him do more? What's 
your sense it, any of the three?
    Tom, we'll start with you, and we'll go----
    Mr. Malinowski. Yeah. Well, I think the answer is: No, he 
had not done enough. You know, the United Nations had to be 
prodded a bit too much into getting its act somewhat together 
last week by sending Mr. Gambari. The Secretary General issued 
some fairly tepid statements about Burma as this crisis was 
beginning. Mr. Gambari was fairly tepid, as well, as you know. 
I think this is an issue that demands much higher-level--much 
higher-priority attention. I think it would probably be a----
    Senator Boxer. OK.
    Mr. Malinowski [continuing]. Good thing for the Secretary 
General to go. Let's hear what Mr. Gambari says. If he--if all 
he says to the Security Council when he briefs them on Friday 
is, ``Let's just have, you know, more trips; it was great that 
I went. Isn't that a sign of great progress?'' that would be a 
signal to me that we need a fundamental change in approach. But 
let's----
    Senator Boxer. Well, I think I'm going to call----
    Mr. Malinowski [continuing]. Let's see what he says.
    Senator Boxer [continuing]. Mr. Ban tomorrow, and talk to 
him, and talk to our Ambassador, who's--and get a better 
picture----
    Mr. Malinowski. Yes. One----
    Senator Boxer [continuing]. Of what's going on.
    Mr. Malinowski [continuing]. One merit of having people 
like that go to Burma is that they get to see Aung San Suu Kyi. 
And every day that they see her, we know she's alive.
    Senator Boxer. Yes. I hear your point.
    Mr. Din. Yes.
    Senator Boxer. Mr. Din.
    Mr. Din. I agree with Tom. We are not impressed with his 
performance on Burma. In late August, he issued a statement in 
response to the situation in Burma. He used the language, 
``provoke.'' He asked all sides to stop provoking in the 
statement. We are the people who were beaten by the soldiers, 
but he asked both sides to stop provocations. We are not 
provocating. They are beating us. But he asked both sides to 
stop. And so, we are angry with the use of that language, and 
also, actually, if the situation is not now getting worse, his 
plan is to send his human rights coordinator to Burma first, 
before Gambari. So, we were also angry with that, because his 
mandate is to facilitate a reconciliation in Burma. That is why 
the political issue will be first. He has sent the humanitarian 
coordinator, Ms. Walstrom, but his original plan to send first 
Ms. Walstrom again, then Gambari, if the situation is getting 
worse like this.
    Senator Boxer. So, you don't think they've done enough.
    What about you, Mr. Green?
    Dr. Green. Tom is right, we need to give Mr. Gambari a 
chance to report. But--and I do think, as several of the 
members said, we should support Mr. Gambari's efforts. And it 
would be good, probably, for Ban Ki-moon, under the right 
circumstances, to go. I would worry, though, that if we let the 
center of action for this be with Mr. Ban and Mr. Gambari, 
that, because the emphasis in the U.N. process is so much on 
consensus, particularly on the Security Council, they'll fall 
very quickly to a lowest common denominator. And, while we've 
seen some shift in China's rhetoric, and even in India's now, I 
think both those countries, and perhaps others in the region, 
would be very satisfied to have a process rested in the United 
Nations that would focus on stability in a very slow lowest-
common-denominator approach to reconciliation, which is not 
where we should be right now if we're going to sustain 
attention. That's why I think we need to have a process, if you 
will, or action, that's more dynamic, that goes to like-minded 
states and starts building a more concrete set of benchmarks 
that's backed by sanctions and by looking at things, like you 
mentioned, ways to tighten those sanctions. So, United Nations, 
necessary, not sufficient. I think we need to go well beyond 
that.
    Senator Boxer. It is, however, a world stage, where, you 
know, we can capture the attention of the world there while we 
do our work bilaterally with other countries. And I think Mr. 
Din's point, of America just saying, ``We're just going to call 
it the way it is. This is murder. This is cold-blooded murder. 
This is wrong. This is shooting people. This is stopping 
democracy. And, worse, this is denying people's self-
determination,'' and just straightforward--and if people way to 
say, ``We can't vote for that,'' let them defend it. I just 
think we've become too gun shy of losing a vote. And I just 
think it's important to say that. After we lose it, if we lose 
it, we can sit and figure something else out. But I agree with 
you, that we still have to do these other sanctions and move 
outside of the U.N. in--to friendly nations, and bolster 
those--what about my point that I actually got from you, Tom, 
your organization, about going back and tightening a loophole 
that has companies like Chevron outside the--outside, and we 
can't stop them doing business?
    Mr. Malinowski. Yeah, I think we have to--we have to 
consider that. Here's where it gets complicated. The--Chevron 
and Total, they're in this partnership, the biggest, you know, 
one of these oil/natural-gas partnerships, from which the 
Burmese Government is getting over $2 billion in revenue a 
year. It's a big deal. They have a contract with the Burmese 
Government that says, if they pull out, they have to pay the 
Burmese Government--I think it's something like half a billion 
dollars. And another possibility is, if they get out, some 
Malaysian company will come in, or Thai company, or South 
Korean company. Right? So, we don't want to do that in a way 
that doesn't actually result in----
    Senator Boxer. So, after--what does--if they pull out, they 
have to do what?
    Mr. Malinowski. They have a contract with the Burmese 
Government that says, if they pull out before the contract 
expires, it's a penalty, like if you----
    Senator Boxer. When is the----
    Mr. Malinowski [continuing]. Cancel your cell phone plan.
    Senator Boxer [continuing]. Contract expiring?
    Mr. Malinowski. I'm not----
    Senator Boxer. Do you know?
    Mr. Malinowski. I'm not sure.
    Senator Boxer. Well, they're--my staff tells me it's 
resulting in $400 to $500 billion. Is that a year or over time? 
In a year? In a year. So, if they have to pay 1 year over 
there, it still pays to get them out of there, it seems to me.
    Mr. Malinowski. It would, unless them getting out is--
simply results in another company coming in, and the Burmese 
Government just gets more revenue.
    Now, there is a way of dealing with this, I think, and it 
actually gets back to the banking side. And I'm going to say 
something fairly odd, and that is that I actually don't want to 
discuss it in a public----
    Senator Boxer. OK.
    Mr. Malinowski. One of the tricky things about these 
sanctions is that sometimes you don't want to talk too much 
about----
    Senator Boxer. Right.
    Mr. Malinowski [continuing]. What you're going to do.
    Senator Boxer. Right. OK.
    Mr. Malinowski. Because then people move----
    Senator Boxer. Fair enough.
    Mr. Malinowski. But I'd be happy to talk to you afterward--
--
    Senator Boxer. Well, I would love that. I think you--if you 
could brief--I think Senator Murkowski is extremely ahead of us 
on the financial sanctions. And so, I would really love to work 
with her. I told her----
    Mr. Malinowski. Sure.
    Senator Boxer. So----
    Mr. Malinowski. You also mentioned the loophole----
    Senator Boxer [continuing]. If you have some thoughts on 
that, if you would share them with her and----
    Mr. Malinowski. I'd be happy to. You also mentioned the 
loophole with--I think someone mentioned, with the gems, that 
you have----
    Senator Boxer. I don't think we did.
    Mr. Malinowski. Well, we have an import ban, as you know, 
but it doesn't apply to Burmese gems that come out of Burma and 
then get finished in a third country. And that's something--
it's a discrete thing, but something that you could also look 
at. And I believe the administration is looking at it.
    Senator Boxer. OK.
    Mr. Malinowski. So----
    Senator Boxer. Well, we just want to----
    Yes, please, go forward.
    Senator Murkowski. Let me just ask one----
    Senator Boxer. Yes. Have a----
    Senator Murkowski [continuing]. More question.
    Senator Boxer. Take as much time as----
    Senator Murkowski. No, no, no, I--because I appreciate all 
the discussion that we've had on the financial sanctions, and 
would be very curious to know other areas that we might want to 
pursue.
    In some of the background that I've got here on Burma, just 
as a country, it mentions that Burma is the world's second-
largest producer of illicit opium. We go ahead, and we impose 
all these sanctions, whether they're on gems or other imports--
and you have an illegal drug trade that is going back and 
forth, we're really not getting to it, are we? If----
    Mr. Malinowski. Well----
    Senator Murkowski [continuing]. If you've got this volume 
of--I'm assuming it's quite a substantial volume of----
    Mr. Malinowski. Right.
    Senator Murkowski [continuing]. Money coming in because of 
opium trade.
    Mr. Malinowski. The original source of most of the money 
that these crooked people in Burma have is from the drug trade, 
basically. It starts with the drug trade. It then gets invested 
or laundered into the ``legitimate economy,'' where these 
financiers or tycoons, who we've been talking about, in 
partnership with the government, then do legitimate businesses, 
like airlines and hotels. But the money comes, originally, from 
the drug trade.
    If we shut the legitimate business down, do they just make 
money directly from the drug trade? At the risk of sounding 
like a one-trick pony, I would get back to the banking, and say 
what's the most effective way of going after drug-traffickers 
in Colombia, in Afghanistan, anywhere else? The one effective 
tool we actually have is going after their money. That's the 
one thing they can't afford to lose. They can afford to lose 
the opium. They can't afford to lose the bank account, because 
that's their ultimate aim, to be rich. So, you actually are--if 
you go down this route that we've been talking about, it 
doesn't matter whether it's a hotel deal, a gas deal, an arms 
deal, or a drug deal, because, at the end of the day, someone 
in Burma has a bank account in Singapore and Thailand that they 
can no longer draw money from. And their relatives walk into 
their room in the morning and say, ``What on earth have you 
done?'' And I think that's the moment when the diplomacy has a 
chance, because that's the moment when they start looking for a 
way out.
    Senator Murkowski. Let me ask one last question, and this 
is about the general, Than Shwe. How deep is his organization? 
If he is no longer there, if he's shut off, cut off, out of the 
country----
    Mr. Malinowski. His family. He's there.
    Senator Murkowski. He and his family.
    Mr. Malinowski. No; he's still there. His family is left.
    Mr. Din. He's still there.
    Senator Murkowski. No; that--I understand that. But what 
I'm saying is, if we are successful in cutting things off to 
this general, how deep does it go? Is it--could this regime 
continue on without his leadership? Or is he really the leader, 
and, without him, we would have better opportunity in finding a 
resolution for the atrocities that we're seeing in Burma?
    Mr. Green.
    Dr. Green. He's not Kim Il Sung or Pol Pot. This is not a 
fully effective culta personality, where, when the leader 
falls, the whole ideology collapses. The generals, it's often 
said, hang together or they hang separately. They are 
collectively enriching themselves on this corruption, on these 
drugs, but they're also afraid. I think you want to have enough 
pressure on all of them. And financial sanctions would target 
the elite, broadly. They start wondering about the 
sustainability of what they're doing. I don't think we can 
expect much more than that.
    It does raise a very difficult question, one that I noticed 
Fred Hiatt addressed in the Washington Post, which is, what 
assurances do you give the elite in a diplomatic process? 
Because if they think that the end of the road is inevitably 
going to be tribunals, they may dig their heels in even harder. 
So, we haven't talked that much about inducements or 
assurances, but any diplomatic pressure has to have the 
coercive element we've talked about. But because they are so 
afraid--they're not only corruption, they're afraid--we have to 
think about incentives on both the negative and positive side, 
as difficult as that is. I think a multilateral process also 
makes that inevitable, because other countries will, you know, 
pool sticks and carrots, but that requires everyone to think 
about both the sticks and the carrots.
    Mr. Din. Can I add?
    Senator Murkowski. Thank you.
    Mr. Din.
    Mr. Din. Yeah. If the administration can really effectively 
impose a financial sanctions against the military junta and 
their financial sources, it will be really, really effective. 
Because, so far, the junta and their family members are relying 
so much on some businessmen who are providing them with 
financial sources. So many of them hold Singapore permanent 
resident status. They have the bank accounts in Singapore. They 
have the economy in Singapore. They have the business in 
Singapore, and also in Thailand. So, if the administration--
really effectively cut these financial resources, the generals 
will have their troubles, and it will make the--we hope the 
administration will effectively take care of these financial 
sanctions.
    Senator Murkowski. Thank you.
    Thank you, Madam Chair.
    Senator Boxer. Well, I just want to thank you for being 
here. This panel was terrific, as I felt all of the panels 
were. And, you know, we're going to stay on this. And the 
reason I thought it was important to move swiftly is, what 
Senator Murkowski said, this is happening now, and we don't 
have the time to sit back and wait. And we need--this is just 
the beginning of what I hope will be a sustained effort on the 
parts of many Senators working together, the women Senators, 
working on sanctions, which I think Senator Murkowski is going 
to do, working to see if we can get the U.N. to do some more 
things, working with our Ambassador, of course working with the 
administration at all places that we can. But sometimes shining 
the light, in this world that we live in now, where--you know, 
I always say, if it wasn't the age of communications, who knows 
if the wall ever would have fallen that divided the East from 
the West, but it--you can't keep these pictures away. They can 
kill a photographer, they can do what they want. The bottom 
line is, word is going to spread. And that's a blessing of the 
times in which we live. There are some tough things about it, 
but--there are harsher weapons, there's more weapons trading. 
There's tough things about the times in which we live, but one 
good thing that mitigates against people like this winning, in 
the long term, is, the light will shine on them. And it's up to 
us, I think, to give this platform, here, over to shining that 
light.
    So, that's what we've done today. I hope it helps. But 
we'll keep it up. And we know that the three of you are deep in 
the middle of this. And we would urge you to work with us, as 
individual Senators and as a subcommittee, and we will report 
to Senators Biden and Lugar about the importance of this 
hearing, and we can assure you that we will keep an eye on this 
and work together on it.
    Thank you so much for--very much for coming.
    We stand adjourned.
    [Whereupon, at 4:45 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
